<html>
<title> - U.S. MILITARY'S CAPABILITIES TO RESPOND TO DOMESTIC TERRORIST ATTACKS INVOLVING THE USE OF WEAPONS OF MASS DESTRUCTION</title>
<body><pre>[Senate Hearing 107-731]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-731
 
 U.S. MILITARY'S CAPABILITIES TO RESPOND TO DOMESTIC TERRORIST ATTACKS 
            INVOLVING THE USE OF WEAPONS OF MASS DESTRUCTION 

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2001

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

82-394 PDF                       WASHINGTON : 2002 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  






















                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

STROM THURMOND, South Carolina       CARL LEVIN, Michigan
JOHN McCAIN, Arizona                 EDWARD M. KENNEDY, Massachusetts
BOB SMITH, New Hampshire             ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            JOSEPH I. LIEBERMAN, Connecticut
RICK SANTORUM, Pennsylvania          MAX CLELAND, Georgia
PAT ROBERTS, Kansas                  MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               JACK REED, Rhode Island
TIM HUTCHINSON, Arkansas             DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
SUSAN COLLINS, Maine                 E. BENJAMIN NELSON, Nebraska
JIM BUNNING, Kentucky                JEAN CARNAHAN, Missouri
                                     MARK DAYTON, Minnesota

                      Les Brownlee, Staff Director

            David S. Lyles, Staff Director for the Minority

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                     PAT ROBERTS, Kansas, Chairman

BOB SMITH, New Hampshire             MARY L. LANDRIEU, Louisiana
RICK SANTORUM, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
WAYNE ALLARD, Colorado               ROBERT C. BYRD, West Virginia
TIM HUTCHINSON, Arkansas             JOSEPH I. LIEBERMAN, Connecticut
SUSAN COLLINS, Maine                 BILL NELSON, Florida
                                     MARK DAYTON, Minnesota

                                  (ii)

  




























                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 U.S. Military's Capabilities to Respond to Domestic Terrorist Attacks 
            Involving the Use of Weapons of Mass Destruction

                              May 1, 2001

                                                                   Page

Lieberman, Robert J., Deputy Inspector General, Department of 
  Defense........................................................     6
Davis, Lt. Gen. Russell C., USAF, Chief, National Guard Bureau...    10
Maples, Maj. Gen. Michael D., USA, Director of Military Support, 
  Office of the Chief of Staff of the Army.......................    19
Lawlor, Maj. Gen. Bruce M., USA, Commander, Joint Task Force 
  Civil Support, U.S. Joint Forces Command.......................    22

                                 (iii)


 U.S. MILITARY'S CAPABILITIES TO RESPOND TO DOMESTIC TERRORIST ATTACKS 
            INVOLVING THE USE OF WEAPONS OF MASS DESTRUCTION

                              ----------                              


                          TUESDAY, MAY 1, 2001

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:38 p.m. in 
room SR-222, Russell Senate Office Building, Senator Pat 
Roberts (chairman of the subcommittee) presiding.
    Committee members present: Senators Roberts, Allard, Byrd, 
Landrieu, Bill Nelson, and Dayton.
    Professional staff members present: Edward H. Edens IV and 
Carolyn M. Hanna.
    Minority staff members present: Richard D. DeBobes, 
minority counsel, and Evelyn N. Farkas, professional staff 
member.
    Staff assistants present: Suzanne K.L. Ross and Michele A. 
Traficante.
    Committee members' assistants present: George M. Bernier 
III, assistant to Senator Santorum; Robert Alan McCurry, 
assistant to Senator Roberts; Kristine Fauser, assistant to 
Senator Collins; Christina Evans, Barry (B.G.) Wright, Erik 
Raven, and Craig Bury, assistants to Senator Byrd; Jason 
Matthews, assistant to Senator Landrieu; Peter A. Contostavlos 
and William K. Sutey, assistants to Senator Bill Nelson; and 
Brady King, assistant to Senator Dayton.

       OPENING STATEMENT OF SENATOR PAT ROBERTS, CHAIRMAN

    Senator Roberts. The Subcommittee on Emerging Threats and 
Capabilities meets this afternoon to review the U.S. military's 
capability to respond to domestic terrorist attacks, and those 
attacks involving the use of weapons of mass destruction. Since 
its establishment in 1999, this subcommittee has worked to 
ensure that the Department of Defense is adequately prepared, 
organized, and funded for its critical combating terrorism 
mission, and today's hearing is a continuation of this process.
    Now, this afternoon we are going to examine the structure, 
the plans, the assets, and the capabilities of the Joint Task 
Force Civil Support Teams--the CST teams. Some of you may 
recall we used to call those RAID teams, and this will include 
a focus on the Weapons of Mass Destruction Civil Support Teams 
(WMD-CSTs), and the recent Department of Defense Office of the 
Inspector General's audit report on the management of those 
teams.
    The Joint Task Force Civil Support (JTFCS), established in 
1999, under the Unified Command Plan 1999, is a standing joint 
task force assigned to U.S. Joint Forces Command. The JTFCS, if 
I can use that acronym, does provide command and control over 
the DOD forces in support of the lead Federal agency 
responsible for responding to a domestic incident involving a 
weapon of mass destruction.
    Now, we look forward to the testimony of Maj. Gen. Bruce 
Lawlor, the commander of the Joint Task Force Civil Support, on 
the status of the JTFCS and the specific focus on its plans for 
trying to coordinate operations with the WMD-CSTs and the 
Reserve components. Also, as the individual responsible for 
marshalling the capabilities of our Armed Forces in support of 
the civilian agencies involved in responding to domestic 
incidents involving any weapons of mass destruction--General 
Lawlor's views on the number and adequacy of the assets 
available to him would be very useful to this subcommittee.
    In the course of its work in the area of combating 
terrorism, this subcommittee has been very involved with and 
supportive of the WMD-CSTs, as I indicated earlier, previously 
known as RAID teams.
    In fact, over the past 2 years, this subcommittee has 
authorized 22 WMD-CSTs, 17 more than was requested by the 
administration. Therefore, it was with great concern that we 
received the January 31, 2001 Department of Defense Inspector 
General audit report titled, ``Management of National Guard 
Weapons of Mass Destruction Civil Support Teams.'' As everyone 
in this room is well aware, this report, conducted over 
approximately a 1-year period, is extremely critical of the 
management of this program. The following is a quote from the 
report's executive summary.
    ``The consequence management program and the Integration 
Office,'' which is--the acronym for that is CoMPIO--``did not 
manage the WMD-CST program effectively. Specifically, CoMPIO 
failed to provide adequate guidance or training and equipment 
for the 10 CSTs.''
    Now, what I find really particularly troubling is that less 
than a year before this audit report was released, then 
Secretary of Defense Cohen, in a February 24, 2000 transmittal 
letter accompanying a congressionally-mandated report on the 
status of the WMD-CST, stated the following:
    ``I am very pleased to inform the Members of Congress that 
this program''--and I am talking again about the WMD and the 
CST program--``is progressing smoothly. We expect to certify 
the initial 10 teams is operationally capable by the third 
quarter of fiscal year 2000. The training received by these 
National Guard soldiers and airmen and the equipment that are 
being provided the teams are superior.''
    The Secretary of Defense went on to say, ``these teams and 
capabilities they bring will greatly enhance the Federal, 
State, and local response effort to a weapon of mass 
destruction incident.'' That was the feeling on this 
subcommittee. That is why, in a bipartisan effort, this 
subcommittee decided to increase the number of these teams 
available.
    Then, a month later, during a March 24, 2000, hearing 
before this subcommittee, Charles L. Cragin, the Acting 
Assistant Secretary of Defense for Reserve Affairs at the time, 
stated the following:
    ``The process of standing up these teams and getting them 
ready to deploy has been truly remarkable, one that Congress, 
the Nation, and the Department of Defense can certainly be 
proud of.''
    The question I have now is, how, in a period of less than a 
year, did the management of these WMD-CSTs and this program go 
from being considered superior and remarkable to what is 
alleged in the IG report as prepared by the Department of 
Defense, or were those characterizations not quite accurate?
    Who in the Department of Defense was providing the policy 
oversight and guidance for this program? If the IG report is 
accurate, and I am well aware the U.S. Army does not concur. 
Let me repeat that. I know that the U.S. Army does not concur 
with many of the findings that are contained in the report. Why 
was CoMPIO allowed to operate for 3 years before it was 
disestablished?
    To address these and other important questions, we have 
before us this afternoon Robert J. Lieberman, who is the Deputy 
Inspector General of the Department of Defense; Lt. Gen. 
Russell C. Davis of the United States Air Force, Chief of the 
National Guard Bureau; Maj. Gen. Michael D. Maples of the U.S. 
Army, the Director of Military Support, the Office of the Chief 
of Staff of the Army; and Maj. Gen. Bruce M. Lawlor, who I 
referred to before, the USA Commander, Joint Task Force Civil 
Support and U.S. Joint Forces Command.
    In closing, I must say that although Congress has 
authorized 32 WMD-CSTs, none today are certified. None today 
are certified by the Secretary of Defense. That was not the 
intent of this subcommittee. That was not the intent of the 
bipartisan support of this subcommittee. I am terribly 
concerned about this and very frustrated about it. We need to 
get answers.
    I now turn to my friend and the subcommittee's 
distinguished Ranking Member, Senator Landrieu, for any opening 
remarks she might have.

             STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman. I am pleased to 
join with you today in calling for this hearing to explore many 
of the points that you raised in your opening statement. I also 
want to welcome our witnesses today, particularly General 
Davis. I was just in Louisiana with our National Guard and 
spent a full, wonderful day with them observing a variety of 
different activities and exercises, so I appreciate your hard 
work here.
    As we all know, the congressionally-chartered Commission on 
National Security in the 21st century, known as the Hart-Rudman 
Commission, reported that America will become increasingly 
vulnerable to hostile attack on our homeland and that states, 
terrorists, and other disaffected groups will acquire weapons 
of mass destruction and mass distribution, and some will use 
them. Americans, it goes on to say, will likely die on American 
soil, possibly in large numbers.
    Finally, the commission stated that the most serious threat 
to our security may consist of unannounced attacks on American 
cities by subnational groups using genetically engineered 
pathogens. I accept this assessment, and that makes today's 
hearing, Mr. Chairman, a deadly serious one. In the event of a 
terrorist attack using a weapon of mass destruction, the first 
officials to arrive on the scene, and possibly among the first 
victims, will be police, paramedics, and fire fighters.
    If that attack happened today, they would be ill-equipped 
to ascertain the nature of the attack, and would require expert 
assistance. The National Guard Civil Support Teams, among 
others, would be called upon to provide that expert assistance. 
I realize that there is some disagreement among our witnesses 
about the Inspector General's audit report, but I believe they 
all agree that those teams will play a critical role in our 
response to any attack using such weapons.
    In view of the existence of this threat, and the 
potentially devastating results of such attack, I believe our 
focus this afternoon should be to identify the lessons learned 
from setting up initial teams, assessing the progress made, 
addressing the existing deficiencies, and determining what else 
must be done to ensure that these teams are certified and 
capable of performing their mission effectively--a very 
important mission.
    I would like to conclude by noting that the concluding 
paragraph of the IG audit report begins with a very positive 
statement. It says that the 10 commanders are ``dedicated 
individuals, highly motivated about their positions, and 
committed to their mission, as well as focused on doing the 
best possible job, regardless of the decisions and conditions 
imposed on them.''
    That statement leads me to believe that the problem that 
exists is systemic, and not a function of the team members or 
their leadership. In my home State of Louisiana, the Guard is 
actually working to prepare for that mission. As we sit here 
today, Mr. Chairman, guardsmen and women are training in 
Louisiana, and the Guard recently refurbished a building to 
serve as their headquarters, provided by the State.
    I have to believe that other states are making similar 
preparations. I only hope that this subcommittee will help to 
bring into light some of the facts, that we can help strengthen 
the teams and improve them so that they can meet the mission, 
as this subcommittee must certainly hope that we can do.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Landrieu follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Thank you Mr. Chairman:
    I would like to thank you for calling this hearing to discuss one 
of the greatest threats our country faces in the 21st century. I would 
also like to take this opportunity to welcome our witnesses and look 
forward to their testimony on this issue.
    The congressionally-chartered United States Commission on National 
Security/21st century (also known as the Hart/Rudman Commission) 
reported that ``America will become increasingly vulnerable to hostile 
attack on our homeland'' and ``States, terrorists, and other 
disaffected groups will acquire weapons of mass destruction and mass 
disruption, and some will use them. Americans will likely die on 
American soil, possibly in large numbers.'' Finally, the Commission 
stated that ``the most serious threat to our security may consist of 
unannounced attacks on American cities by sub-national groups using 
genetically engineered pathogens.''
    I agree with those words and that makes today's hearing a deadly 
serious one. In the event of a terrorist attack using a weapon of mass 
destruction, the first officials to arrive on the scene and possibly 
among the first victims, will be police, paramedics and firefighters. 
If that attack happened today, they would be ill-equipped to ascertain 
the nature of the attack and would require expert assistance. The 
National Guard's Weapons of Mass Destruction/Civil Support Teams (WMD-
CSTs), among others, would be called on to provide that expert 
assistance.
    I realize that there is some disagreement among our witnesses about 
the Inspector General's Audit Report on the National Guard Weapons of 
Mass Destruction--Civil Support Teams (WMD-CST), but believe all agree 
that those teams will play a critical role in our response to any 
attack using weapons of mass destruction in the United States.
    In view of the existence of the threat and the devastating results 
of such an attack, I believe that our focus this afternoon should be to 
identify the lessons learned from setting up the initial teams 
(including the comments made in the IG report), assess the progress 
made in addressing existing deficiencies, and determine what else must 
be done to ensure the teams are certified and capable of performing 
their mission effectively.
    I would like to conclude by noting that the concluding paragraph of 
the IG Audit Report begins with ``The 10 WMD-CST commanders are 
dedicated individuals, highly motivated about their positions, and 
committed to their mission as well as focused on doing the best 
possible job regardless of the decisions and conditions imposed on 
them.'' That statement leads me to believe that the problems that exist 
are systemic and not a function of the team's members or leadership. In 
my home state of Louisiana, the Guard is actively working to prepare 
for that mission. As we sit here today, Guardsmen and women are 
training at Fort Leonard Wood and the Guard recently refurbished a 
building to serve as their headquarters, built a K-span hut to store 
their equipment and built a helicopter pad to facilitate their quick 
response. I have to believe other states are making similar 
preparations. Given that fact, I look forward to hearing from our 
witnesses not ``what happened?'' but ``where do we go from here?'' 
Thank you Mr. Chairman.

    Senator Roberts. I thank the distinguished Senator. I am 
delighted to welcome other members of this subcommittee, 
especially Senator Byrd, the distinguished Senator from West 
Virginia; and two new members of this subcommittee, Senator 
Nelson from Florida, Senator Dayton from Minnesota, and my good 
friend and colleague from Colorado, Senator Allard, and so we 
welcome you to this subcommittee.
    If any Member would like to make a very brief statement 
prior to the testimony of the panel, I would certainly 
encourage that at this time.
    Senator Bill Nelson. Mr. Chairman, I would only underscore 
what you said. This is one of the greatest, perhaps the 
greatest threat that is facing the United States of America, 
and there just simply cannot be any slack on us being able to 
meet this threat, so I am anxious to hear what happens.
    Senator Roberts. I was just writing down a response to the 
gentleman's comments. We have the CSIS study--that is a think 
tank here of noted prominence--the Hart-Rudman Commission, the 
Gilmore Commission, and the Bremer Commission, all four, and 
probably I am leaving something out, indicating that today 
there is pretty much of a concerted opinion that the number 1 
issue that represents a threat to our National security is 
homeland defense. Our efforts not only within the Department of 
Defense but throughout all Federal agencies, and what we do 
about that, and whether we can get our arms around it as best 
we can in a future hearing with several committees of this 
Congress--I think that is maybe eight, if I am not correct--but 
the DOD effort of having a qualified, well-trained team within 
4 hours of anywhere was the idea that spawned this whole 
effort.
    Again, I am very troubled, and I know there is a difference 
of opinion with this report. We are right now 4 hours from 
nowhere, and so consequently we have to get these teams up, 
running, and certified. I was under the opinion that seven at 
least had been certified, then 10, then 17, and then we are up 
to 27, and then 32. There are other problems--other challenges, 
not problems.
    I did not mean to make another speech, but anyway, thank 
you for your comment, Senator Nelson, and now Mr. Lieberman, 
please proceed.

  STATEMENT OF ROBERT J. LIEBERMAN, DEPUTY INSPECTOR GENERAL, 
                     DEPARTMENT OF DEFENSE

    Mr. Lieberman. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today to discuss the audit results to 
which you just referred, and what the department is doing about 
them.
    First, some additional background. The Presidential 
Decision Directive 39 in the Defense Against Weapons of Mass 
Destruction Act of 1996 directed various measures to enhance 
national defense against terrorists. A DOD Tiger Team 
subsequently recommended establishing National Guard teams to 
assist the emergency first responders such as local fire 
departments and hazardous material response units in cases of 
known or suspected WMD incidents. The focus of these teams is 
principally on helping to identify what material or agent was 
involved.
    In January 1998, the Deputy Secretary of Defense tasked the 
Army to establish the Consequence Management Program 
Integration Office, or CoMPIO, to implement the Tiger Team 
recommendations. CoMPIO planned to field the first 10 teams in 
January 2000.
    Later in 1998, the National Defense Authorization Act for 
Fiscal Year 1999 mandated that ``a Reserve component rapid 
assessment element team and any Reserve assigned to such a team 
may not be used to respond to an emergency unless the team or 
that Reserve possesses the requisite skills, training, and 
equipment to be efficient in all mission requirements.'' This 
is a tough, but not impossible, standard.
    In addition, in a rather extraordinary provision that 
apparently relates to the inherent danger of this mission, the 
act required that the proficiency of each team be certified by 
the Secretary of Defense.
    Now to the audit results. First, I would like to stress 
that we were highly impressed by the professionalism and 
dedication of the leaders and members of the initial 10 
National Guard teams. The program's management problems are in 
no way attributable to them.
    In its initial stages, the WMD-CST program is basically a 
system acquisition program requiring intensive up-front 
planning, because it supports a new mission for the National 
Guard. Until recently, however, it was not managed within the 
Army acquisition program structure or by trained acquisition 
corps personnel. Instead, CoMPIO operated as an essentially 
autonomous entity, with little oversight or guidance.
    Although CoMPIO communicated with numerous local, State, 
and Federal officials, we heard lots of complaints that it 
regularly bypassed or inadequately coordinated with DOD and 
Army centers of expertise in acquisition, logistics, testing, 
doctrine, training, medicine, communications, and chemical-
biological defense. The result was flawed acquisition and 
sustainment planning, leading to schedule slippage and cost 
growth of as yet undetermined severity.
    Because no new technology was introduced, and various other 
military and Federal organizations already have units with the 
same general kind of mission that could serve as models, I 
personally do not see why this program became as complicated as 
it did.
    Our report discusses the many deficiencies evident in the 
program last year. For illustrative purposes, I will mention 
just a few of them. First, doctrine for employing the teams was 
incomplete. The absence of approved doctrine obviously creates 
considerable risk of premature or otherwise faulty decisions on 
training, equipment, manning, and mission-readiness 
certification.
    Second, I feel that undue reliance was placed on external 
evaluations, EXEVALs, the unit-level training event to 
demonstrate the mission readiness of the CSTs. What was 
actually needed was a rigorous program of operational test and 
evaluation. Not only do EXEVALs lack the discipline and 
reliability of formal testing, but every team lacked key 
personnel, equipment, or both, when the EXEVALs were staged.
    For example, none of the teams undergoing the EXEVALs had 
received the Mobile Analytical Laboratory System van, 9 of the 
10 lacked the vital communications reach-back capability, and 
all of them had personal protective equipment shortages. CST 
personnel identified numerous issues to the auditors that 
normally would have been surfaced in realistic testing and 
resolved.
    Third, equipment chosen by CoMPIO for the teams was 
generally different from standard items already in military 
inventories. We saw no compelling reason to buy nonstandard 
equipment. It considerably complicates the logistics support 
requirements for the teams, as well as posing testing and 
training issues.
    Although the program was not managed using acquisition 
milestone criteria, the statutory certification requirement 
provided an equivalent check-and-balance. Of course, 
certifications are only effective controls when the 
certification criteria are meaningful. We reported, and the 
Office of the Secretary of Defense agreed, that the 
certification criteria initially developed by the Army were 
less rigorous than Congress intended, and not prudent from the 
standpoint of soldier safety and DOD credibility.
    The Office of the Secretary of Defense agreed with our 
findings, and took action to implement our recommendations, 
which are listed on page 4 of my written statement. We have 
been gratified by the responsive actions taken over the past 
several months in response to the audit. I can report to you 
today that implementation of all of our recommendations is 
either complete or ongoing.
    My staff and I have been working closely with senior Office 
of the Secretary of Defense, Army, and National Guard Bureau 
officials to move those agreed-upon actions forward. Those 
actions include a comprehensive program review to eliminate 
ambiguity about the mission and certification criteria, as well 
as efforts to achieve certification of several initial teams 
later this year.
    In summary, I commend the department for taking the audit 
findings seriously, and undertaking the thorough review that we 
suggested to get this program back on track.
    This concludes my verbal statement, sir.
    [The prepared statement of Mr. Lieberman follows:]
               Prepared Statement by Robert J. Lieberman
    Mr. Chairman and members of the subcommittee: I appreciate the 
opportunity to be here today to discuss the Department of Defense 
effort to bolster this Nation's homeland defense by fielding Weapons of 
Mass Destruction--Civil Support Teams (WMD-CSTs). My testimony will 
focus primarily on the results of my office's audit last year of WMD-
CST program management, which are presented in our report of January 
31, 2001.
                      audit background and timing
    Chemical and biological defense has been an audit coverage emphasis 
area for us throughout the past decade, as the threats posed by these 
and other so-called asymmetrical weapons received increased recognition 
and the Department of Defense reacted with numerous research, 
acquisition and organizational initiatives. Before the WMD-CST audit, 
our reviews focused generally on the warfighters' preparedness to 
operate in contaminated environments on the battlefield.
    Presidential Decision Directive 39, issued in June 1995, and the 
Defense Against Weapons of Mass Destruction Act of 1996 directed 
various measures to enhance homeland defense against terrorists armed 
with weapons of mass destruction. A DOD Tiger Team subsequently 
recommended establishing National Guard teams to assist the emergency 
first responders, such as local fire departments and hazardous material 
response units, in case of known or suspected WMD incidents. The focus 
of these teams, which were initially termed rapid assessment, 
identification and detection units, was to be on identifying what WMD 
material or agent was involved. The Tiger Team estimated that an 
initial complement of 10 teams could be operational by fiscal year 
2002. In January 1998, the Deputy Secretary of Defense tasked the Army 
to establish the Consequence Management Program Integration Office 
(CoMPIO) to implement the Tiger Team recommendations. CoMPIO adopted a 
very aggressive schedule, planning to field 10 teams by January 2000.
    The National Defense Authorization Act for Fiscal Year 1999 
mandated that:

        A Reserve component rapid assessment element team and any 
        Reserve assigned to such a team, may not be used to respond to 
        an emergency . . . unless . . . the team, or that Reserve, 
        possesses the requisite skills, training and equipment to be 
        proficient in all mission requirements.

    In addition, the act required that the proficiency of each team be 
certified by the Secretary of Defense. Congress did not specify a 
schedule for WMD-CST certification and fielding, but authorized an 
additional 17 teams in fiscal year 2000 and 5 more in fiscal year 2001, 
for a total of 32.
    Recognizing the growing DOD and congressional interest in homeland 
defense, we decided in December 1999 to review the WMD-CST program. We 
briefed National Guard, Department of the Army and Office of the 
Secretary of Defense officials on the results of our review frequently 
during calendar year 2000. Most of the fieldwork was completed by 
September 2000.
                             audit results
    It was apparent from the outset of the audit that the planned 
January 2000 initial operational capability date had been unrealistic; 
the WMD-CSTs were not operationally ready and the program lacked good 
management controls. On the other hand, we were highly impressed by the 
professionalism and dedication of the leaders and members of the 
initial 10 WMD-CSTs. The program's slippage and cost growth are in no 
way attributable to the 10 teams. Those problems stem from what we 
candidly characterized as ineffective management by CoMPIO and 
inadequate oversight by the department before the audit brought 
numerous issues to their attention last summer.
    In its initial stages, the WMD-CST program is basically a system 
acquisition program requiring intensive upfront planning because it 
supports a new mission. Until recently, however, it was not managed 
within the Army acquisition program structure or by trained acquisition 
corps personnel. Instead, CoMPIO operated as an essentially autonomous 
entity with no effective oversight to ensure that sound acquisition 
practices were followed. CoMPIO regularly bypassed or inadequately 
coordinated with DOD and Army centers of expertise in acquisition, 
logistics, testing, doctrine, training, medicine, communications and 
chemical/biological defense. The result was flawed acquisition and 
sustainment planning. Our report discusses the many deficiencies 
evident during the audit in the WMD-CST program. For illustrative 
purposes, I will mention just a few examples.
    First, doctrine for employing WMD-CSTs was incomplete and 
coordination between CoMPIO and the Joint Forces Command and Army 
doctrine developers was very poor. Absence of approved doctrine 
obviously creates considerable risk of premature or otherwise faulty 
decisions on training, equipment, manning and mission readiness 
certification.
    Second, coordination with the Federal law enforcement community, a 
vital player in Consequence Management, needed improvement to ensure 
that WMD-CST mission definition and doctrine did not conflict with law 
enforcement agencies' plans and prerogatives.
    Third, undue reliance was placed on external evaluations (EXEVALs), 
a unit level training event, to demonstrate the mission readiness of 
WMD-CSTs. What was actually needed was a rigorous program of 
operational test and evaluation. Not only do EXEVALs lack the 
discipline and reliability of formal testing, but every WMD-CST lacked 
key personnel, equipment, or both when the EXEVALs were staged. For 
example, none of the teams had received the Mobile Analytical 
Laboratory System (MALS) van, 9 of 10 teams lacked communications 
reachback capability, and all of them had personal protective equipment 
shortages. WMD-CST personnel identified numerous issues to us that 
normally would have been identified in realistic testing and resolved.
    Fourth, training programs and materials were inadequate. Again, 
lack of approved doctrine and vague mission definition were factors.
    Fifth, WMD-CST equipment chosen by CoMPIO was generally different 
from standard items already in military inventories. We saw no 
compelling reason for CoMPIO to buy nonstandard equipment that 
considerably complicates the logistics support requirements for WMD-
CSTs, as well as posing testing and training issues.
    Many of the problems identified by the audit could be considered 
symptoms of an immature acquisition program that was not ready for a 
full-scale production or deployment decision. Although the WMD-CST 
program was not managed or controlled using acquisition milestone 
criteria, the certification requirement in the National Defense 
Authorization Act for Fiscal Year 1999 provided equivalent ``check and 
balance.'' Of course, certifications are effective controls only when 
certification criteria are meaningful. We reported, and the Office of 
the Secretary of Defense agreed, that the certification criteria 
developed by the Army for WMD-CSTs were considerably less rigorous than 
Congress intended and simply not prudent from the standpoint of soldier 
safety and DOD credibility.
                department of defense corrective action
    The Office of the Secretary of Defense agreed with our findings and 
took action to implement our recommendations, which were:

        <bullet> to disestablish CoMPIO;
        <bullet> to reassign WMD-CST program management 
        responsibilities to the Assistant to the Secretary of Defense 
        for Civil Support, the Principal Deputy Assistant Secretary of 
        Defense (Reserve Affairs) and the Deputy Assistant to the 
        Secretary of Defense for Chemical and Biological Defense 
        Programs;
        <bullet> to issue Office of the Secretary of Defense guidance 
        prescribing certification standards and delineating the 
        specific missions, duties and responsibilities of the WMD-CSTs;
        <bullet> to ensure that WMD-CST certifications are based on 
        that guidance;
        <bullet> to coordinate at the Office of the Secretary of 
        Defense level with the Federal Bureau of Investigation on WMD-
        CST roles and missions; and
        <bullet> to conduct a thorough program review of the WMD-CST 
        initiative, including operational concept, doctrine, equipment, 
        sustainment, personnel assignments and rotations, funding and 
        the certification process.

    We have been gratified by the responsive actions taken over the 
past several months in response to the issues raised by the audit. I 
can report to you today that implementation of all of our 
recommendations is either complete or ongoing. My staff and I have been 
working closely with senior Office of the Secretary of Defense, Army 
and National Guard Bureau officials to move those agreed-upon actions 
forward. The increased involvement of the National Guard Bureau in this 
program is particularly welcome. In summary, I commend the department 
for taking the audit findings seriously and undertaking the thorough 
review that we suggested to get this program back on track.
    The full text of our Report No. D-2001-043, Management of National 
Guard Weapons of Mass Destruction-Civil Support Teams, January 31, 
2001, is available on the web at www.dodig.osd.mil. Again, thank you 
for the opportunity to participate in this important hearing. This 
concludes my statement.
    [Full text of the report can be found as appendix at the end of the 
hearing.]

    Senator Roberts. The chair would like to have all members 
of the panel testify, and then we can begin the questions at 
that time.
    General Davis, welcome to the subcommittee.

 STATEMENT OF LT. GEN. RUSSELL C. DAVIS, USAF, CHIEF, NATIONAL 
                          GUARD BUREAU

    General Davis. Thank you very much, Mr. Chairman, 
distinguished members of the subcommittee. It is a pleasure for 
us to be here to talk about these Weapons of Mass Destruction 
Civil Support Teams, with which the Guard has been charged with 
the responsibility for fielding.
    These civil support teams have a very important mission, as 
you indicated, sir, to respond in the event of a major 
catastrophic event in the United States, and these teams were 
set up initially to do just that, and they have been proceeding 
down with their training and equipping in order to accomplish 
that very mission.
    I would like to abbreviate my written statement. I have 
submitted it for the record, but there are a couple of topics I 
would like to discuss with you, some six, program management, 
doctrine, certification, training, equipment and safety, and 
standardization of equipment, and finally I would like to 
address some of the concerns that were brought out in the 
report as they relate to the National Guard teams.
    I am confident that the first 10 teams have met all of the 
training standards as they were set out. They are competent, 
capable, and have been supplied with appropriate equipment. 
However, there remains some safety concerns and some other 
issues primarily relating to the Mobile Analytical Lab. 
Whenever safety concerns are raised, we have a duty to our 
airmen and to our soldiers to assure that we have those 
corrected, and that a continuous improvement process is in 
place.
    The safety of the Mobile Analytical Lab System was an issue 
raised in the audit, and to address this, we have gone about 
working with the United States Army Test and Evaluation 
Command, and they will be doing an assessment of these 
particular vehicles, looking at integration of them with other 
systems within the required complement of equipment for the 
team. We are also working very closely with the United States 
Army Soldier Biological Command as we make this assessment, and 
working other safety issues.
    These National Guard Civil Support Teams will have 
operational authority, operational readiness and sustainability 
to conduct their missions. The civil support team mission is, 
first: to assess a suspected weapons of mass destruction event, 
and second: to advise the civil responders, those folks that 
Senator Landrieu talked about who would be the first on the 
scene, regarding appropriate actions, and next to facilitate 
the arrival of any additional local, State, or Federal 
resources that show up at the incident site.
    The issue of program management, which I will address 
first, in support of these teams, must be viewed in the context 
of the dynamic process in the Department of Defense, the Army, 
and the National Guard, who undertook a new, innovative, 
creative program that was mandated by Congress to field 10 
teams and make them operational, and the hope of doing that in 
less than 2 years--that process normally takes from 3 to 5 
years. This was fast-tracked, and as a result of that some of 
the things that might have been done and would have been done 
did not take place.
    Operational management issues in the National Guard Civil 
Support Teams is a very complex issue. To deal with our concept 
of tiered response, employing first the local, then the State, 
and then the Federal responses, these forces assist to deter, 
prepare, respond, and manage consequences at a mass casualty 
site caused by an attack or any other situation.
    These teams have a unique State-Federal relationship. While 
they are federally funded, they are operated by the States, and 
are detailed to the Governor for his use in that State or in 
any other surrounding States, as context would dictate, a vital 
link between the local civilian responses with whom they work, 
as well as the Federal response force.
    In the area of doctrine, in a fast-track program it is 
developed simultaneously, and it evolves as the teams are being 
implemented. As we execute those programs within the National 
Guard and the Department of Defense, the guidance that we 
develop and all, comes forth as we work our way through the 
process of fielding the teams.
    Early in this process, we sought and received assistance 
from State and local agencies, and organizations representing 
first responder groups, to enhance interoperability as well as 
efficiency. We are and continue to corroborate with the United 
States Army Training and Doctrine Command, on all doctrine-
related issues through working drafts, and we have a second 
working draft of one of those documents relating to doctrine at 
this point.
    With respect to certification, that process and the 
criteria developed was approved by the Army for the civil 
support team commanders to have them equipped and trained in 
the units with established standards.
    Preoperational criteria for civil support team 
certifications are the overall readiness of C-1 as established 
by Congress, and this is unique in the sense that most 
operational organizations, when they stand up, reach their 
initial operational capability, they do that at the C-3 level, 
a degraded level, typically because of the time required for 
training and sometimes the delivery of equipment, but this was 
dictated to be at the C-1 level.
    Second, an evaluation administered by the First or Fifth 
Army, this was the external evaluation that will be used by the 
State Adjutants General in determining his or her intent to 
request unit certification; and third, a commander's subjective 
assessment that indicates the unit's ability to perform its 
mission, ergo, assess, advise, and facilitate.
    All 10 teams have successfully completed their external 
evaluation. All the commanders have assessed their units and 
deemed them to be operationally ready. At one point in time we 
have had some personnel turnover, and as a result of that, we 
will go back and evaluate each one of those units.
    There are some unresolved safety concerns about the Mobile 
Analytical Lab System, and this is essentially a vehicle in 
which is housed a series of equipment which will allow them to 
analyze a chemical or biological agent.
    These MALS, as we refer to them, were submitted to the 
teams, and the teams as they worked their way through in 
training on them, found that some additional enhancements were 
needed but were unavailable. These tasks specifically related 
to the biological access compartment of their mission.
    The team's ability to perform critical functions, planning, 
preparing, and coordinating, may be successfully performed 
outside of the MALS unit, so we feel without the MALS unit they 
can, to a significant degree, perform most of their missions. 
Additional evaluation of this is being made out at Dugway 
Proving Grounds, and we will have further comment on that 
later.
    The training, a deliberate process, was used to identify 
and develop comprehensive training for the civil support teams. 
The Army's Director of Military Support provided individual and 
collective training guidance to the Commander, Forces Command, 
and the civil support teams in a memorandum in 1988. It was 
designed to allow the teams and their commanders flexibility in 
meeting their unique training requirements for their teams 
while providing a basis for the commitment of resources.
    These teams, and each individual member, received in excess 
of 600 hours of individual training beyond what was required by 
their military specialty in both the Army and the Air, and the 
teams are comprised of both their soldiers from the Army Guard, 
and airmen from the Air Guard. The program consists of three 
phases, institutional, collective, and sustained training.
    Safety and equipment. Equipment and safety issues raised by 
the audit have been resolved, with the exception of the 
comprehensive testing and evaluation of the MALS equipment. 
Further testing and evaluation, as I said, will be conducted by 
the United States Army Training and Evaluation Command, and is 
expected to resolve this matter.
    Standardization of equipment. One of the comments related 
to equipment variations was the result of lack of management 
oversight and lack of requirements definition testing, et 
cetera, as Mr. Lieberman said. We have put together an 
equipment technical working group, which is a body that 
consists of members of the team, the National Guard Bureau, and 
acquisition officials, in order to resolve some of these 
issues. We feel that we will get these issues resolved of 
equipment standardization.
    We also are looking at modernization ideas and opportunity 
to continuously improve these teams with a centralized process, 
where the States will be involved in modernization, as well as 
working with acquisition officials. Equipment standardization 
and interoperability is an ongoing and continuously worked 
issue by the National Guard Bureau.
    We have two other working teams, or working groups, within 
this operation, the doctrine working group, where we are 
working with a number of other agencies within the Army and 
throughout the Department of Defense, as well as a plans and 
operations working group. In summary, the management structure 
has been established within the National Guard to execute 
Department of Defense policy and guidance relative to the 
National Guard Civil Support Teams, and this includes the fact 
that the teams will be able to assess the effects of a mass 
destruction event and provide situational awareness to the 
supported incident commander, then facilitate additional local, 
Federal, and State response.
    The National Guard Bureau has set up an office, a Civil 
Support Office, to act as the permanent office for civil 
support teams and manage the Title 10 responsibilities, the 
functions, and multiple employment of civil support teams. The 
National Guard Bureau will require funding for these teams, as 
well as for initial training and sustainment.
    We are also at the National Guard Bureau working with the 
teams, and will continue to provide full support to the 
Adjutants General in each State, who work closely within their 
States and within their communities to coordinate National 
Guard support, or civil authorities, as the National Guard 
fulfills its critical role.
    Four important considerations must be addressed. The first 
of these is to provide a lead in homeland security missions. We 
must not be separated from the National Guard traditional 
mission of war-fighting while we execute these homeland defense 
missions.
    Second, from its inception, the National Guard has always 
been a Federal and State asset.
    Third, whenever the Guard is called out, it brings the will 
of the American people with it. The close ties to State and 
community allow the country to stay bound as one, and we must 
not fail in that mandate to our country as we defend it from 
our enemies, both foreign as well as domestic.
    Fourth, the men and women serving on the civil support 
teams are fully trained and capable individuals who are anxious 
to go and perform their missions. They have proven themselves 
to a lot of us as we work our way through it. We are working 
very extensively with their training, comprehensive exercises, 
and evaluations.
    I would like to comment further that we at the Department 
of Defense, in the Army and Inspector General's Office, as well 
as in the National Guard Bureau, are working very closely as a 
team to get these teams fielded as soon as possible.
    Thank you for the opportunity to speak with this 
subcommittee on this critical area. We welcome the opportunity 
to return at some point in the future to give you an additional 
update. Thanks again for your interest and support for the 
National Guard Civil Support Teams.
    [The prepared statement of Lieutenant General Davis 
follows:]
         Prepared Statement by Lt. Gen. Russell C. Davis, USAF
                              introduction
    The National Guard routinely contributes to the National mission 
for civil support by activating a state-level military response in 50 
states, 3 territories and the District of Columbia. The National Guard 
is proud to provide a geographically dispersed, community-based 
response to combat the varying types of asymmetric threats which 
directly challenge the security of the homeland. In this role, the 
National Guard leverages the inherent capability within each state's 
National Guard for emergency management, response, and recovery 
operations for any emergency.
    Emerging asymmetric threats, such as single or multiple weapons of 
mass destruction terrorism attacks within the United States, present 
the high-end of terrorism that clearly challenges the safety of this 
Nation, and warrants a unified response by the Department of Defense 
(DOD) in support of the civil authority.
    In response to these emerging threats, the National Command 
Authority has directed the establishment of dedicated, mission-tasked 
organized forces within the DOD to support the civil authority in 
preparing for and conducting consequence management operations.
    The National Guard welcomes the opportunity to continue its 
historical role in homeland defense when we were given the mission to 
support civil authorities in managing the consequences of a weapons of 
mass destruction (WMD) event. We appreciate the trust of Congress and 
the American people in asking us to form the civil support teams 
(CSTs). Once again, when our Nation called, the National Guard 
willingly stepped forward.
    In light of a recent DOD Inspector General (DOD IG) Audit Report, 
my comments will focus on the National Guard Civil Support Teams, and 
the National Guard's role in support of an incident commander during 
and after a domestic emergency resulting from a Weapons of Mass 
Destruction event. With respect to the issues, we are confident that 
our first 10 National Guard CSTs have met all established training 
requirements, are competent, capable, and have been supplied with the 
appropriate equipment. However, there remain concerns with the mobile 
analytical laboratory.
    Whenever safety related concerns are raised, we have addressed 
these findings to ensure a continuous process of improvement is 
followed. For example, the safety of the Mobile Analytical Laboratory 
System (MALS) was an issue raised in the audit. To address the 
viability and safety of the MALS we have asked the U.S. Army Test and 
Evaluation Command (ATEC) to conduct an independent assessment of the 
system, and we are working with the U.S. Army Soldier Biological 
Chemical Command to do just that.
    Our overall perspective on the issues discussed within the DOD 
Audit Report is that the audit helps us clarify and focus upon key 
issues that are critical to the successful fielding of the CSTs. For 
the past 2 years, the National Guard has embarked upon an aggressive 
program to organize, man, train, equip, and exercise teams in WMD 
consequence management operations. We have done so at an extremely 
rapid pace and with substantial high-level oversight. This has been a 
collaborative effort. We have successfully fulfilled our mandate by 
leveraging the experience, knowledge, and lessons learned from hundreds 
of organizations, and from subject matter experts within the DOD and 
the civilian community.
    We envision the National Guard CSTs mission to have operational 
authority, operational readiness and sustainability. The CST mission 
is: to assess a suspected WMD event in support of a local incident 
commander, to advise civilian responders regarding appropriate actions, 
and to facilitate the arrival of additional State and Federal military 
forces to support validated requests for assistance. Our task is to 
help save lives, prevent human suffering, and mitigate property damage. 
Today we are manned, trained, and equipped to perform this mission 
(with 10 initial teams, each consisting of 22 highly skilled, full-time 
members of the Army and Air National Guard).
    With respect to our detailed analysis of the DOD IG Audit Report, 
we categorized issues into six clear-cut areas concerning the National 
Guard's CST initiatives: program management, doctrine, certification, 
training, equipment/safety, and standardization. All of the issues 
noted have received our full attention and have been satisfactorily 
addressed. A brief overview of each area will provide insight into 
particular issues within each.
                 civil support team program management
    The issue of program management of the CSTs must be viewed in the 
context of the dynamic process that the Army and the National Guard 
undertook to establish a new, congressionally mandated capability, and 
have it fully operational in less than 2 years. The development and 
management of the program along with the subsequent capabilities of the 
CSTs, enables the National Guard to execute its stated civil support 
mission. Many programmatic issues have been and are still being 
resolved with regard to the proper institutional placement of the CST 
management requirements; however, the teams have been and continue to 
be managed in a manner that allows them to execute the mission for 
which they were designed.
    With the design, implementation, and institutionalization of a DOD 
program as unique and complex as the CSTs, a distinct historical record 
has evolved. In this instance, the history indicates the dynamic nature 
of the establishment of the CSTs; the high level of interest from the 
executive and legislative branches of government, and the relatively 
recent desire to institutionalize the functions initially assigned to 
the Army's Consequence Management/Program Integration Office. As the 
CSTs are further integrated into the DOD infrastructure, the National 
Guard will continue to provide the program management functions that 
make the CSTs a mission capable consequence management asset to first 
responders.
    Operational management issues mentioned in the audit are complex as 
they follow our concept of a tiered response in employing local, State, 
and Federal response forces. These forces deter, prepare for, respond 
to, and manage the consequences of a mass casualty event, attack, or 
situation. Our CSTs have a unique State-Federal relationship. While all 
CSTs receive Federal funds and are trained and evaluated to Federal 
standards, each remains, first and foremost, a state asset, under the 
command and control of the governor of the state in which they are 
located. It is this very unique state-oriented capability of the CSTs 
that is often misunderstood, considered unnecessary, and perceived as a 
duplication of efforts to other U.S. military rapid response units. We 
believe the dual relationship is a strength that enables the CSTs to 
provide a vital link between the local civilian first responders, with 
whom they know and train, and the Federal response force.
                      civil support team doctrine
    A compressed method of doctrine development and concurrent CST 
fielding was employed to meet the congressional intent of fielding the 
teams in a short period of time.
    Doctrinal issues will continue to evolve as we implement a 
management structure within the National Guard to execute DOD policy 
relative to our civil support mission. The National Guard Civil Support 
Program does have doctrine relating to the CSTs. Initially, an express 
method of doctrine development was employed concurrent with CST 
fielding. This was done to meet the congressional intent of fielding 
the CSTs as quickly as possible.
    Early in this process, we sought and received assistance from state 
and local agencies and organizations representing first response 
groups. Experts from these organizations provided assistance in 
developing operational concepts, refining requirements, writing 
doctrine, determining equipment sets, and developing and delivering 
training to the CSTs. We are collaborating with the U.S. Army Training 
and Doctrine Command (TRADOC) on this issue. The final CST doctrine 
handbook was developed following the Army's DTLOMS model. It also 
complies with Chapter 5 of How the Army Runs: A Senior Leader Reference 
Handbook, 1997-1998.
    The CST doctrine handbook has been approved by TRADOC and, in the 
near future will be placed in their digital library for public access. 
We have provided input regarding CST doctrine for the revision of Joint 
Publication 3-07.7, Joint Tactics, Techniques, and Procedures for 
Domestic Support Operations, which has been submitted to the J-3 staff 
for approval. Both of these documents include guidance to the 
proponents for both joint and service doctrine that will ensure the 
dual state and Federal nature of the CST mission is adequately 
addressed.
    The NGB will continue to be actively involved in the development of 
CST-related doctrine in coordination with the appropriate joint 
agencies. We will work with the Army's Joint Task Force-Civil Support 
to identify operational concepts and plans as a part of the development 
process.
                    civil support team certification
    Based on the certification process/criteria developed and approved 
by the Army, the CST commanders have equipped and trained the units to 
the established standards. Certification standards were directed in a 
December 22, 1999 and subsequent February 11, 2000, messages from the 
Army's Director of Military Support (DOMS). The three operational 
criteria for CST certification are:

        <bullet> An overall readiness level of C-1 in all reportable 
        areas (IAW AR 220-1).
        <bullet> An evaluation administered by the First or Fifth Army 
        that will be used by the state adjutant general in determining 
        his or her intent to request unit certification.
        <bullet> A commander's subjective assessment that indicates the 
        unit's ability to perform its mission (assess, advise, and 
        facilitate).

    To accomplish this, the commanders have outfitted their units 
according to the Deputy Chief of Staff for Operations and Plans, United 
States Army approved table of distribution and allowance and have 
outlined their training according to the mission training plan and the 
fiscal year 2001 training requirements list. Currently, seven of the 
original 10 CSTs have a USR readiness rating of C-1 and the other three 
have a USR readiness rating of C-2.
    All 10 units have successfully completed their external 
evaluations, and all 10 commanders have assessed their units and deemed 
them operationally ready to complete their mission. As I noted earlier, 
there are some unresolved concerns with the Mobile Analytical 
Laboratory Systems (MALS). As a result, there is a degradation of the 
teams' ability to accomplish a few mission tasks. These tasks, 
specifically related to the biological assess component of their 
mission, do not hinder the teams' ability to perform the critical 
functions of planning, preparing, and coordinating for a weapon of mass 
destruction event.
    Additionally, the external evaluations are the accepted method used 
to assist commanders in assessing the level of training and proficiency 
in their units. The NGB believes that training is the responsibility of 
the unit commander. It is the commander who is responsible, and must 
attest to the unit's readiness.

        <bullet> Individual annual refresher training is required by 
        the Occupational Safety and Health Administration (OSHA) and 
        Environmental Protection Agency (EPA) regulations in order to 
        maintain and update training certificates.
        <bullet> Individual annual refresher training is required in 
        order to maintain and update training certificates awarded in 
        TRADOC programs.

    These types of refresher training are in addition to external 
evaluations that will be conducted as deemed necessary by the 
respective unit commander.
                      civil support team training
    Drawing upon the collective knowledge and expertise of 
organizations involved in providing trained expertise in fields related 
to the CSTs mission, a deliberate process was used to identify and 
develop a comprehensive training program for the CSTs. The training 
strategy (developed by the CoMPIO and approved by Director of Military 
Support (DOMS)) was developed in consultation with subject matter 
experts in both the military and civilian communities. These subject 
matter experts were drawn from the agencies listed in the Army's 
response. All were key organizations involved in developing and 
presenting training to the CSTs.
    The Director of Military Support provided individual and collective 
training guidance to the Commander, U.S. Forces Command (FORSCOM) and 
the CSTs in a memorandum dated September 14, 1998. It was designed to 
allow the CST commanders flexibility in meeting the unique training 
needs of their teams, while providing a basis for the commitment of 
resources. Selection of training curriculum involved evaluating the 
U.S. Army Soldiers and Biological Chemical Command's (SBCCOM) 
compendium of WMD courses and programs of instruction to leverage 
existing courses to the greatest extent possible. Over 300 courses were 
examined. As new equipment and additional capabilities are developed 
for the CSTs, additional training will be developed.
    The CST training program is very comprehensive, with each member 
receiving an average 600 hours of initial individual instruction beyond 
basic MOS qualification. The training program consists of three phases: 
institutional (which focuses on individual training such as branch 
qualification and specialty training and includes the 600 hours 
mentioned above), collective (which focuses on collective mission 
essential tasks and the conduct of training exercises), and sustainment 
training (includes advanced courses, refresher training, and team 
training).
    The first 10 CSTs have exercised with all of their equipment and 
have submitted requests for certification, which at this time, have not 
been granted. The Army's Maneuver Support Center and FORSCOM conducted 
lanes training (at Fort Leonard Wood, MO) for all of the initial 10 
CSTs. This training was conducted at the request of the TRADOC 
Commanding General and at the direction of the DOMS. The training 
course is the result of a formal training review of the initial 10 
teams' institutional training, which recommended combining three of the 
already completed courses into one course, the WMD Emergency Assessment 
and Detection Course (EADC). Five iterations of this course were 
conducted for the 17 Fiscal Year 2000 CSTs and newly hired members of 
the original 10 teams at Fort Leonard Wood, MO, during the summer of 
2000.
Military Occupational Specialty Qualification
    Approximately 65 CST-assigned personnel received some of their 
training from the USACMLS compressed 3-week Nuclear, Chemical and 
Biological (NBC) noncommissioned officer course instead of the standard 
16-week NBC noncommissioned officer course. The USACMLS does not award 
certification of MOS qualification because personnel did not attend the 
16-week course.
    Members of the CSTs receive structured individual and collective 
training. Each member is assigned to a position as specified by a 
paragraph and line number in the unit's table of distribution and 
allowance. Required training courses relative to each of these 
positions have been established. Each CST fields two survey teams 
consisting of three members each. Survey team members must be MOS 54B 
or 3E9 (the Air Force qualification code equivalent) qualified and can 
obtain that qualification by attending the 54B 20/30-R course taught by 
the Army school system battalion or by attending the course taught by 
the USACMLS.
    There are not enough 54B/3E9 MOS qualified personnel in the labor 
market to meet the hiring needs of the CSTs. Approximately 35 otherwise 
qualified applicants were hired for the survey team member positions 
that had to attend 54B/3E9 training. These individuals attended a 
specifically developed 54B 20/30-R (Reclassification Course) during 
November and December 1999. This particular program of instruction was 
taught at Fort Leonard Wood, MO, and consisted of courses taught by an 
Army school system battalion. The main difference was that the 
instructors used for this program of instruction were certified 
instructors from the USACMLS and the CSTs, not from the Army school 
system battalion. The instructors used were at least as well qualified 
as those habitually used for the standard and abbreviated courses 
taught by the Army school system battalion. This course had the prior 
approval of the USACMLS, and the students were issued certificates of 
completion by the USACMLS Assistant Commandant, which indicates they 
received the equivalent of the 54B 20/30 course taught by the Army 
school system battalion. No team member is less qualified than if he or 
she had a MOS issued by the USACMLS.
    During December 2000 and January 2001, a series of three more 
courses were taught at Fort Leonard Wood, MO, for approximately 70 
personnel. However, these courses only provided individual skill 
training (54B MOS, Phase 1) for new CST members. These personnel will 
receive hands-on equipment training (54B MOS, Phase 2) from the Army 
school systems battalions, from May to September 2001, which will 
complete their MOS training.
Course Development
    A new 3-week course, WMD Emergency Assessment and Detection Course 
(EADC), required of all CST personnel, is a DOD and TRADOC approved 
course, developed in cooperation with USACMLS because MOS qualification 
courses did not cover CST specific equipment. The EADC combined new 
equipment training, the NBC Recon/Survey course and the initial portion 
of lane training into one course. Additionally, simulated training 
scenarios, guidance on specific tasks, and task sequencing were 
incorporated into the EADC course.
Training Equipment and Training Aids
    The NGB is aware that insufficient cross training could degrade 
capability, therefore, cross training is accommodated at every 
opportunity. It is embedded in every exercise a team conducts, both 
unilaterally and in conjunction with the first responder community. 
Additionally, team training occurs as part of CST day-to-day 
operations. Team members learn their individual roles as they relate to 
the section in which they are assigned and to the team's overall 
mission. The CST members are not traditional Guardsmen, because of 
their mission; they are in a full-time, Active Duty status and are on-
call around the clock for 365 days a year. The CSTs are the only units 
in the National Guard with this capability and commitment. WMD specific 
training is obtained from a variety of sources including formal 
classroom training, distance learning technology, and practical 
application at Federal and state proponent schools.
    The training CSTs received complies with Army standards. Cross 
training of team members occurs during lane training where individual 
and institutional training are integrated for the entire team. Lane 
training is conducted at Fort Leonard Wood, MO. The training regime has 
been finalized and approved; however, the regime continues to evolve as 
lessons learned are incorporated. As funding is programmed, training 
will be handed off to the proponents and it will be fully 
institutionalized. The institutionalization of training is dependent on 
adequate programmed funding.
                civil support team equipment and safety
Mobile Analytical Laboratory System (MALS)
    The NGB has been continuously working to ensure that the MALS 
performs successfully. The MALS, designed and developed by SBCCOM, has 
undergone test plans, quality assurance procedures, and peer review and 
independent reviews. It adequately accommodates the mission need for a 
functional laboratory by providing the CSTs with an analytical platform 
for performing identification of chemical, biological, and radiological 
materials. The NGB is continuously working to ensure MALS performance. 
An operational test of the complete system is being conducted by the 
ATEC under the auspices of SBCCOM.
Information System Accreditation
    The National Security Agency through the U.S. Army Intelligence and 
Security Command (INSCOM) provides accreditation for the system in 
accordance with the Defense Information Technology Security 
Certification and Accreditation Process and established Army policy. 
Interim accreditation has been in place since the UCS was fielded. A 
message from the Commander of INSCOM, dated March 12, 2001, gives all 
the CSTs interim approval to operate the UCS through June 11, 2001. 
Permanent accreditation is expected on June 1, 2001.
Reachback Infrastructure
    The reachback system has been repeatedly demonstrated and works to 
specification. The CST reachback system was developed by DTRA. This 
system is fully capable. DTRA can provide both automated tools and a 
24-hour, 7-day a week operations center for support the CSTs. This 
system is accepted and regularly used by many organizations throughout 
DOD.
    The NGB continues to work with DTRA and Naval Air Warfare Center, 
Aircraft Division to improve communication protocols and take full 
advantage of the reachback capabilities of the CSTs. Currently, the 
CSTs are specifically trained in communications protocol, to include 
reachback functions with DTRA.
Radio Frequency Assignment
    It has been noted that the radio frequencies assigned to the CSTs 
has insufficient range for conducting operations. This issue has been 
resolved. The CSTs currently have three frequencies assigned in UHF. 
National wide frequencies were granted to the CSTs on 28 March 2000. 
The teams work with their state chain-of-command to establish standard 
procedures, as they do during normal disaster response operations. The 
frequencies are standardized among the teams with a permanent 5kHZ 
TACSAT channel available for domestic consequence management response. 
There are two national high frequency radio networks and a 24-hour, on-
call frequency manager in place to support the CSTs.
                      standardization of equipment
    We are in the process of establishing a lessons-learned system to 
support the Civil Support Team mission. The National Guard Civil 
Support Team has established a number of working groups to address 
numerous issues. The Civil Support Team mission support has an 
Equipment Technical Working Group, which is a technical body consisting 
of civil support team members, National Guard Bureau, and acquisition 
specialists. The Equipment Technical Working Group is also involved 
with equipment standardization issues. It provides management oversight 
and gives direction to equipment acquisition recommendations. 
Modifications and ideas must be presented to the working group before 
they are reviewed or funded. This is a centralized process that the 
states are to follow before making any equipment modifications. 
Equipment standardization and interoperability are ongoing issues that 
are continuously worked by the National Guard Bureau Civil Support 
Office.
                                summary
    As the National Guard fulfills its homeland security role, four 
important considerations must be addressed. The first is that while the 
National Guard may lead on certain homeland security mission areas, we 
must not separate the National Guard from our traditional war-fighting 
missions.
    Second, from its inception, the National Guard has always had a 
Federal and a state mission. We have always accepted and executed our 
responsibilities for either of these missions, but we must grant the 
same stature to the defense of the homeland, as the support we provide 
to combatant commanders.
    Next, ``calling out the National Guard'' brings with it the will of 
the American people. Our ties with the states and communities across 
our country are binding, and we must not fail in our mandate to defend 
this country from our enemies, both foreign and domestic.
    Finally, the men and women serving on our CSTs are fully trained 
and capable of performing their mission. They have proven themselves 
ready through extensive training, and comprehensive exercises and 
evaluations. We all want to take the next steps and move this program 
forward for the American people.
    Thank you for the opportunity to speak with the subcommittee on 
this most critical subject. We welcome the opportunity to return and 
report on our progress at the earliest convenience of the subcommittee. 
Thank you for your interest.

    Senator Roberts. Thank you, General Davis.
    I failed to suggest to all members of the distinguished 
panel, we want to welcome you. We certainly thank you for 
taking time out of your valuable schedules to contribute. 
Please feel free to summarize your comments. Your full 
statements will be made a part of the record, so if you would 
like to summarize, we can get to the questions.
    I am not trying to pressure you by any means. I just want 
to make that clear. We have had two excellent statements, so 
please proceed, and feel very free to summarize if you would 
like.
    Welcome to the subcommittee, General Maples. Please 
proceed.

  STATEMENT OF MAJ. GEN. MICHAEL D. MAPLES, USA, DIRECTOR OF 
   MILITARY SUPPORT, OFFICE OF THE CHIEF OF STAFF OF THE ARMY

    General Maples. Thank you very much for both the welcome 
and the opportunity to summarize. I do appreciate the 
opportunity to appear before the subcommittee and to comment on 
the Weapons of Mass Destruction Civil Support Teams. I have 
submitted a written statement, and I would just like to make 
short opening remarks.
    The interest and support of the subcommittee for the WMD-
CST program is much appreciated. The teams that have been 
established in the National Guard will provide the Nation an 
important capability in the event of a domestic weapons of mass 
destruction event, and they are already being recognized by the 
local first responder communities for the expertise they bring.
    The Secretary of the Army was given the mission in January 
1998 to lead efforts within the Department of Defense to 
improve military support for response to incidents involving 
weapons of mass destruction. The Secretary of the Army was 
further directed to establish the Consequence Management 
Program Integration Office (CoMPIO) to provide special 
management in this effort.
    The program office was established subordinate to the 
Director of Military Support. The Department of Defense, 
through the CoMPIO, organized, trained, and equipped 10 WMD-
CSTs while simultaneously developing the doctrine training 
programs and the specialized equipment required to support the 
mission requirements of these unique assets.
    Consistent with congressional legislation and approved 
Department of Defense plans, special management and parallel 
processes of development were employed in order to field the 
teams and provide for their availability as rapidly as 
possible. In a period of approximately 18 months, 10 WMD-CSTs 
were organized, trained, and equipped.
    At the same time that the WMD-CSTs were being fielded, 
trained, equipped, and evaluated, the DOD Inspector General 
conducted an audit of the program. The Army provided a detailed 
response to the draft audit on 7 December, 2000. The Army did 
concur with several of the audit findings, particularly those 
related to the program review and the institutionalization of 
the CoMPIO functions for long-term within the Department of 
Defense.
    The Army response offered substantive comments on each 
observation, finding, and recommendation, providing additional 
information and noting those observations that the Army 
believed had already been addressed by the program's 
established processes during the period between the time the 
observations were made and the date the draft report was 
received.
    Also, on 7 December, based on recommendations received from 
the commanders of the WMD-CSTs, and endorsed by the respective 
State Adjutants General and the Chief of the National Guard 
Bureau, and having given additional detailed consideration to 
the status of personnel, training, and equipment for each team, 
the Under Secretary of the Army forwarded his recommendation 
that seven teams be certified.
    On February 22, 2001, consistent with approved Department 
of Defense directives, the program office was formally 
disestablished, and began the process of transitioning programs 
and activities throughout the Department of Defense. The Army 
and the National Guard are fully supportive of the 
comprehensive ongoing Department of Defense program review, 
including the certification working group, and the study of 
longer-term programmatic and systematic issues. The Army 
remains committed to ensuring that the WMD-CSTs are properly 
manned, equipped, trained, and are proficient in all mission 
requirements in order to perform their vital consequence 
management role in a safe and reliable manner.
    Sir, this concludes my remarks. Thank you for the 
opportunity to participate today.
    [The prepared statement of Major General Maples follows:]
         Prepared Statement by Maj. Gen. Michael D. Maples, USA
    Mr. Chairman, distinguished Senators of the subcommittee: I 
appreciate the opportunity to appear before this subcommittee and to 
comment on the Weapons of Mass Destruction Civil Support Teams (WMD-
CSTs). The interest and support of this subcommittee for the WMD-CST 
program is much appreciated. The WMD-CSTs that have been established in 
the National Guard will provide the Nation an important capability in 
the event of a domestic Weapons of Mass Destruction event.
    In January 1998, Defense Reform Initiative Directive #25 directed 
the Secretary of the Army, as the Department of Defense Executive Agent 
for Military Support to Civil Authorities, to lead efforts within the 
Department of Defense to improve military support for response to 
incidents involving Weapons of Mass Destruction. The Department of 
Defense Plan, ``Integrating National Guard and Reserve Component 
Support for Response to Attacks Using Weapons of Mass Destruction,'' 
was approved for Fiscal Year 1999 implementation as specified in 
Program Budget Decision (PBD) 712. The Secretary of the Army was 
further directed to establish the Consequence Management Program 
Integration Office (CoMPIO). The missions and functions of the 
Consequence Management Program Integration Office and the WMD-CSTs were 
broadly described in Defense Reform Initiative Directive #25. The 
Secretary of the Army established the Consequence Management Program 
Integration Office in January 1998, subordinate to the Director of 
Military Support.
    Congress authorized and funded the formation of ten WMD-CSTs in 
October 1998. Over the next 18 months, the Department of Defense, 
through the Consequence Management Program Integration Office, 
organized, trained, and equipped ten WMD-CSTs, while simultaneously 
developing the doctrine, training programs, and the specialized 
equipment required to support the mission requirements of these unique 
assets. Consistent with congressional legislation and approved 
Department of Defense plans, special management and parallel processes 
of development were employed in order to field the teams and provide 
for their availability as rapidly as possible. Throughout the 
developmental process, CoMPIO worked with experts from Federal, State 
and local agencies and conducted program status reviews to maintain 
visibility of program decisions.
    In January 1999, individuals assigned to the WMD-CSTs began an 
extensive training program to prepare them both individually and 
collectively. At the same time, acquisition of specialized equipment 
required by the teams was initiated. Throughout 1999, the teams and 
team members improved their professional capabilities by participating 
in numerous established courses and programs, completing institutional 
training in June 1999. In July 1999, the teams began to receive 
equipment and to conduct new equipment training. Collective training 
lanes for the teams were completed in August 1999, and the teams began 
preparing for external evaluations of their proficiency levels that 
were administered in February and March 2000. Thus, in a period of 
approximately 18 months, 10 WMD-CSTs were organized, trained and 
equipped.
    Beginning in April 2000, the commanders of the WMD-CSTs began to 
request certification. Their requests were endorsed by their respective 
State Adjutants General and the Chief of the National Guard Bureau 
before being forwarded to the Department of the Army. These commanders 
have reported that the teams and all assigned personnel possess the 
skills, training and equipment to be proficient in all mission 
requirements.
    At the same time that the WMD-CSTs were being fielded, trained, 
equipped, and evaluated, the DOD Inspector General conducted an audit 
of the program. The Army received a proposed draft audit report and met 
with members of the DOD Inspector General to understand the basis for 
the initial findings and to offer additional information if required. 
The requests for certification were held by the Army in order to 
consider the initial observations of the audit.
    The Army was provided a copy of the draft Inspector General audit 
on October 12, 2000. The Army provided a detailed response on December 
7, 2000. The Army concurred with several of the audit findings, 
particularly those related to program review and the 
institutionalization of the CoMPIO functions within the Department of 
Defense. The Army response offered substantive comments on each 
observation, finding and recommendation, providing additional 
information and noting those observations that the Army believed had 
already been addressed by the program's established processes during 
the period between the time the observations were made and the date the 
draft report was received.
    Also on December 7, 2000, based upon the recommendations previously 
received from commanders, and having given additional detailed 
consideration to the status of personnel, training and equipment for 
each team, the Under Secretary of the Army forwarded his recommendation 
that seven WMD-CSTs be certified. Recommendations for the other three 
teams have been held pending resolution of readiness concerns and 
completion of the current program review.
    In June 2000, the Department of Defense formed Process Action Teams 
to realign the organizational placement of CoMPIO's functions within 
the department. On November 9, 2000, the Deputy Secretary of Defense 
specified that the Special Assistant to the Secretary of the Army for 
Military Support would serve as the Program Manager for the WMD-CSTs 
and directed the Secretary of the Army to prepare a detailed transition 
plan consistent with a proposed realignment that would institutionalize 
the functions of the CoMPIO. The Secretary of the Army submitted a 
transition plan on November 27, 2000.
    The Deputy Secretary of Defense approved a Program Budget Decision 
on February 14, 2001, that superceded Defense Reform Initiative 
Directive #25 and directed the disestablishment of CoMPIO. On February 
22, 2001, CoMPIO was formally disestablished. Personnel assigned to the 
former CoMPIO formed the Program Transition Office to support the 
Special Assistant to the Secretary of the Army for Military Support in 
the process of transitioning CoMPIO programs and activities throughout 
the Department of Defense. The Acting Secretary of the Army assigned 
WMD-CST program functions to the Special Assistant to the Secretary of 
the Army for Military Support, and the Chief of the National Guard 
Bureau has been assigned to be the Army proponent for the Weapons of 
Mass Destruction Civil Support Teams.
    The Army and the National Guard are fully supportive of the 
comprehensive ongoing Department of Defense review of the WMD-CST 
program, and the review of the status of the teams to resolve any 
remaining concerns to enable the certification process to proceed. The 
Army remains committed to ensuring that the WMD-CSTs are properly 
manned, equipped, trained, and are proficient in all mission areas in 
order to perform their vital consequence management role in a safe and 
reliable manner.
    Thank you for the opportunity to appear here today.

    Senator Roberts. Thank you, General Maples.
    General Lawlor.

 STATEMENT OF MAJ. GEN. BRUCE M. LAWLOR, USA, COMMANDER, JOINT 
      TASK FORCE CIVIL SUPPORT, U.S. JOINT FORCES COMMAND

    General Lawlor. Thank you, Mr. Chairman, members of the 
subcommittee. I appreciate the opportunity to speak with you 
today. I am Commander, Joint Task Force Civil Support, which is 
a standing joint task force headquartered at Fort Monroe, 
Virginia. If I may, I would like to summarize very briefly the 
statement for the record that I have prepared, and perhaps even 
depart a little bit to answer your questions, Mr. Chairman.
    Senator Roberts. Without objection, please proceed.
    General Lawlor. The mission of the Joint Task Force Civil 
Support was recently refined in interim policy guidance that 
was assigned by Deputy Secretary of Defense Wolfowitz on 28 
March of this year, and it specifically provides that the JTF 
principal focus is to plan for and operationally integrate DOD 
support to the lead Federal agency responsible for the U.S. 
Government's consequence management efforts during a domestic 
chemical, biological, radiological, nuclear, or high yield 
explosive (CBRNE) incident.
    Within the United States Joint Forces Command, a charter 
has been written and was recently signed by the CINC, and it 
provides that upon order of the Secretary of Defense, the JTF 
would deploy to the vicinity of a CBRNE, or WMD incident site, 
and provide consequence management support to the lead Federal 
agency with the specific purpose of saving lives, preventing 
injury, and providing temporary critical life support.
    So our function is really twofold. One, we plan, and two, 
we prepare to respond. I would like to emphasize, if I may, 
that the JTF is an operational headquarters, and we are working 
on planning for events that are catastrophic in nature. We are 
not designed, nor programmed, to respond to incidents that are 
well within the capabilities of States to manage, or even 
States in conjunction with sister States through the interstate 
compact system to manage, or even in conjunction with some 
assistance that can be provided from civilian Federal agencies. 
My headquarters is specifically charged with being a 
headquarters of last resort, if you will, to bring military 
assistance to bear when all other efforts have failed.
    A meeting was recently held at the Joint Forces Command 
specifically to discuss the role of the CSTs as it relates to 
the Joint Task Force in anticipation of certification. Until 
such time as the teams are certified, they are not deployable, 
and of course that means they are not available to the Joint 
Task Force for their utilization. However, I would like, with 
your permission, sir, to briefly outline for you some of the 
thoughts that we are looking at with respect to the integration 
of the CSTs and Joint Task Force Civil Support for an 
operational response.
    The CSTs, we believe, will be the first military organized 
units that will arrive on scene, and they will serve, or can 
serve very effectively as the scouts for the JTF, and in that 
capacity provide three very important components. The first is 
communications between the incident site and the command, the 
second is to provide situational awareness of exactly what is 
transpiring on the ground, and the third is to help us assess 
as quickly as we can the requirements that civil agencies might 
have for our assistance if we were ordered to provide it.
    It is very important that we understand as early as 
possible what kind of assistance the lead Federal agency might 
be requesting, and the CSTs can provide an extremely valuable 
service in providing us with that situational awareness and 
that understanding of those requirements.
    Finally, in the event that the JTF deploys to an incident 
site to provide military assistance to the lead Federal agency, 
we see the CSTs augmenting the--let me go back a minute. We 
anticipate that the CST that is resident in the State where the 
incident site might have occurred would remain in a state 
status and subject to the authority of the Adjutant General.
    However, given the fact that our response role is only in 
the event of a catastrophic incident, we would anticipate the 
need for additional CSTs that might have to be brought into 
that location from more remote states. Those CSTs would be used 
to, frankly, assist the in-state CST that will have been 
working very hard for a number of days and the CSTs are only 22 
persons strong, and they will need relief.
    We also see them playing a supplemental role in responding 
to requests for assistance from the citizens who will have 
either suspected or confirmed the presence of a WMD agent in a 
different locality than what may be additionally identified. In 
order to facilitate this process, the Commander in Chief of the 
Joint Forces Command has recently signed a directive that will 
authorize us to have direct liaison authority with CSTs so that 
we can begin to discuss these missions more directly with them.
    That concludes my remarks. I apologize for departing from 
the prepared text, but I was trying to respond to your 
question, and thank you very much for allowing me.
    [The prepared statement of Major General Lawlor follows:]
          Prepared Statement by Maj. Gen. Bruce M. Lawlor, USA
                              introduction
    Mr. Chairman, distinguished members of the subcommittee, thank you 
for inviting me to address you today. Joint Task Force--Civil Support 
is a standing joint task force headquarters under the command of the 
United States Joint Forces Command. It is located at Ft. Monroe, 
Virginia. It focuses exclusively on providing military support to the 
lead Federal agency during the aftermath of a domestic Chemical, 
Biological, Radiological, Nuclear, or high yield Explosive (CBRNE) 
event. The command came into being on 1 October 1999. The 
implementation plan called for it to be organized and ready to assume 
its CBRNE consequence management (CoM) mission on 1 April 2000. We met 
that target deadline. Today we are mission capable and working hard to 
address the challenges associated with domestic CBRNE consequence 
management. I would like to take a few moments to update you on our 
present status.
                                mission
    Deputy Secretary Paul Wolfowitz signed interim policy guidance on 
28 March 2001 for ``Department of Defense Consequence Management 
Support to Domestic Incidents Involving Chemical, Biological, 
Radiological, Nuclear and High Yield Explosives (CBRNE-CM).'' This 
policy guidance provided that DOD will maintain JTF-CS as a standing 
headquarters and that its ``principal focus shall be to plan for and 
operationally integrate DOD support to the Lead Federal Agency 
responsible for the U.S. Government's consequence management efforts 
during a domestic CBRNE incident.'' In addition, the JTF-CS Charter, 
approved by CINCUSJFCOM on 17 January 2001, provides that, when 
directed, JTF-CS will deploy to the vicinity of a CBRNE incident site 
and provide command and control (C\2\) of designated responding DOD 
forces to provide military assistance in support of the lead Federal 
agency (LFA) to save lives, prevent injury and provide temporary 
critical life support. The charter calls for us to deploy only upon 
order of the Secretary of Defense and only in support of a civilian 
lead Federal agency. I would like to briefly review both parts of the 
JTF-CS mission.
                                planning
    The Federal Response Plan (FRP) is the organizational construct 
under which JTF-CS will respond to a domestic CBRNE emergency. It 
outlines how the Federal Government implements the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act to assist state and local 
governments when a major disaster or emergency overwhelms their ability 
to respond effectively. Under the Federal Response Plan, Federal 
response operations are organized into 12 Emergency Support Functions 
(ESFs). Ten separate Federal agencies have been designated as primary 
agencies for the 12 ESFs. Designation as a primary agency means that 
the agency so designated is responsible for managing the Federal 
response as it pertains to that particular functional area. The 
Department of Transportation, for example, is the primary agency for 
matters pertaining to Federal transportation assistance to state and 
local authorities under the FRP. The U.S. Army Corps of Engineers is 
responsible for ESF #3, public works. In addition, the FRP tasks DOD 
with providing support to each of the other primary agencies 
responsible for directing the Federal effort within the other ESFs. 
This presents JTF-CS with a considerable challenge as we are required 
to understand the procedures employed by each of the 10 Federal 
agencies and the type of support each is likely to request so that we 
might support them as they carry out their primary agency 
responsibilities.
    To facilitate our planning processes and to ensure the primacy of 
the Federal agencies we support, we have organized within JTF-CS a 
special liaison directorate and assigned officers from that directorate 
liaison duties with each of the 10 Federal agencies. These liaison 
officers are responsible for learning the processes and procedures 
unique to their agency and for working with the agency to identify 
potential requirements for DOD assistance for CBRNE scenarios. We 
believe this liaison initiative is working very well.
    The demand for domestic CBRNE consequence management planning has 
been greater than was foreseen at the time of the JTF-CS stand up. In 
the 18 months since our inception, we have quietly performed CBRNE 
consequence management contingency planning for several domestic 
special events. Each of these plans has been crafted to support a lead 
Federal agency--normally the Federal Emergency Management Agency, but 
not always. Our most recent effort was in support of the National 
Capitol Police in conjunction with the President's State of the Union 
Address. Planning for these real world special events has provided JTF-
CS with extremely valuable experience and has been more important than 
any other single factor in developing and improving our capabilities.
    In addition to planning for real world events, JTF-CS conducts 
quarterly training exercises that focus on planning and deployment for 
specific types of CBRNE incidents. To date we have conducted such 
exercises in each of the 5 areas with which we are concerned: chemical, 
biological, radiological, nuclear, and high yield explosive events. We 
have learned to create a base plan for the most dangerous event and 
prepare branches and sequels for other possible incidents. By doing so, 
we have reduced our response planning time considerably.
                              deployments
    In addition to domestic CBRNE CoM planning, JTF-CS, if ordered, 
will deploy to the site of a CBRNE incident and assume command and 
control of designated DOD responding assets. Once on site, our mission 
will be to respond to requests for assistance from the LFA. It is 
important to note that while we are providing assistance to state and 
local authorities, we remain a Federal military headquarters and our 
taskings will come from a lead civilian Federal agency. In all cases, 
of course, we remain under DOD control and our chain of command runs 
from the Secretary of Defense to CINC, U.S. Joint Forces Command to 
JTF-CS.
    The JTF-CS headquarters is ready to rapidly deploy anywhere within 
the United States, its possessions and territories in response to a 
CBRNE incident. We have developed this capability through regularly 
scheduled deployments that are part of our quarterly training exercises 
and we have recently begun to conduct no notice exercises. We are 
comfortable that we can meet our target deployment times and through 
our exercise program we continue to improve our deployment procedures.
    Not all civil support operations require deployment of the entire 
JTF-CS headquarters. Indeed, such a deployment is unlikely except in 
the event of a catastrophic CBRNE incident. Because of this, we have 
also developed a minimum footprint concept that permits us to position 
ourselves to provide civil support to an LFA if needed but without pre-
positioning a large DOD forward presence. This concept uses a small 
number of liaison and communications personnel to maintain situational 
awareness and establish communications at a potential incident site 
while keeping the bulk of JTF-CS at home station ready to respond not 
only to that site but also to any other site that we may be called upon 
to support. We are not unmindful that a special event might be used to 
divert attention from a threat elsewhere and we have planned for that 
eventuality.
                                wmd-cst
    As the purpose of this hearing is to review the status of Weapons 
of Mass Destruction Civil Support Teams (CSTs), I would like to explain 
briefly the present relationship between JTF-CS and these teams.
    JTF-CS has played virtually no role in CST development. CST 
assistance is not currently a part of our mission and we neither 
conduct CST training nor perform any oversight functions with regard to 
their operational capabilities or readiness. There are several reasons 
for this. The most important is outlined in the fiscal year 2001 Forces 
For Unified Commands document. The assignment of Reserve component 
forces to a CINC in the Forces For Unified Commands document, in this 
case the 27 CSTs, establishes the assigned CINC's authority to exercise 
training readiness oversight (TRO) authority over them. This authority 
enables the CINC to exercise responsibility in five broad categories: 
1) provision of guidance to component commanders on operational 
requirements and priorities to be addressed in military department 
training and readiness programs, 2) comment on service component 
program recommendations and budget requests, 3) coordinate and approve 
participation by assigned Reserve component (RC) forces in joint 
exercises and other joint training, 4) obtain and review readiness and 
inspection reports of assigned RC forces, and 5) coordinate and review 
mobilization plans. Traditional Title 10 responsibilities for manning, 
equipping, training, and sustaining RC forces remain with the services.
    It is important to recognize the CINC's TRO authority extends only 
to those National Guard units that are assigned to his command. In the 
case of CSTs, this has not happened because the CSTs are still in the 
process of certification and the Forces For Unified Commands document 
stipulates they cannot be deployed or assigned until they are 
certified. In the absence of such assignment, the prevailing legal 
opinion is that the CINC has no TRO authority. Once the Secretary of 
Defense certifies CSTs as being mission capable as required by the law, 
they will be assigned to USJFCOM and USPACOM at which time the assigned 
CINC's TRO authority attaches. All that remains for that to occur is 
the Secretary's certification which we anticipate will be completed in 
the near future.
    In the meantime, the CINC is taking measures to ensure 
standardization of CSTs and their interoperability with JTF-CS. He 
directed that JTF-CS propose a CST Mission Essential Task List that 
identifies the tasks, conditions, and standards that will standardize 
the Federal CST mission and make them interoperable with JTF-CS. We 
have forwarded this list and our associated recommendations through the 
U.S. Joint Forces Command staff to be promulgated to its Army component 
and to the NGB.
    The CINC also tasked JTF-CS to prepare an outline of the tactics, 
techniques, and procedures (TTPs) JTF-CS is using to support special 
events. Once completed these will be made available to the CSTs for 
their use in supporting special events within their respective states 
if called upon to do so. The initial draft of that document has been 
completed and we anticipate turning it over to the U.S. Joint Forces 
Command staff shortly.
    The CINC has also asked us to look at the training program for 
CSTs. The CST training program is doctrinally sound. It was put 
together very quickly and as with any such program refinements are 
required as the program matures. However, that notwithstanding, CST 
members receive some of the best and most comprehensive CBRNE 
consequence management response training available anywhere. Each 
soldier goes through approximately 800 hours of individual training 
conducted not only at DOD schools but also at schools sponsored by the 
Federal Emergency Management Agency, the National Fire Academy, the 
Department of Energy, the Environmental Protection Agency, the 
Department of Justice and the Federal Bureau of Investigation. 
Following completion of individual training, soldiers are taught to 
function as a team and to perform mission essential tasks in accordance 
with conditions and standards published by the U.S. Army Chemical 
School. U.S. Army Forces Command, the Army component of U.S. Joint 
Forces Command, conducts external evaluations of each team at the end 
of its training cycle and assesses its level of proficiency in the 
tasks that are critical to the performance of its mission. In summary, 
it is our belief that the CSTs are well-trained and valuable assets 
that contribute materially to the accomplishment of the CBRNE 
consequence management mission.
    In conclusion, JTF-CS has made great strides since its inception a 
year and a half ago. We believe we have established good relations 
within the interagency and we are confident we can deploy quickly if 
called upon to help in time of need. Thank you for allowing me to speak 
with you today.

    Senator Roberts. Thank you, General Lawlor. It would be the 
intention of the chair to ask the distinguished Senator from 
West Virginia if he had any questions or comments at this time.
    Senator Byrd. I do have some comments. I will proceed in 
any way you wish. I do have a statement and some questions, but 
I am perfectly happy to have others go ahead of me.
    Senator Roberts. No, sir. Please proceed.
    Senator Byrd. Mr. Chairman, thank you for scheduling this 
hearing. Homeland security has emerged in recent years as one 
of the Nation's most pressing needs. The National Guard is at 
the forefront of the effort to meet that need. Unfortunately, 
homeland security also presents an incredibly complex and 
difficult set of problems to address. The Department of Defense 
is but one of several Federal agencies assigned the central 
role in developing an effective homeland security strategy.
    State and local governments are also key players. 
Leadership, coordination, oversight within and among all of 
these layers of Government are essential if we are to achieve 
an effective strategy because of the urgency involved in 
devising a framework for responding to potential acts of 
domestic terrorism. I think we have to expect such acts 
increasing as time passes.
    The National Guard Civil Support Teams were developed and 
fielded in a very compressed time frame. As Mr. Lieberman noted 
in his prepared testimony, the personnel involved in standing 
up the initial 10 teams demonstrated professionalism and 
dedication in attempting to meet an unrealistic operational 
capability target.
    It appears that management of the program is back on track, 
that we are moving in the right direction. That is an important 
accomplishment. We cannot afford to lose ground in this 
endeavor. While we must continue to make sure that this program 
is on track, we also must be constantly scanning the horizon to 
make sure that the track is going in the right direction.
    For example, it appears that the Army is well on the way to 
developing a comprehensive program for training the civil 
support teams and that is something we must keep on track, but 
it also appears that little progress has been made in 
standardizing cross-training between the CSTs and first 
responders, and that is a need that we must anticipate and 
address.
    First responders, police, fire and rescue squads, and 
emergency medical personnel are at the tip of the spear. They 
will likely be the first ones on the scene of almost any 
terrorist attack on U.S. soil. They are the men and women who 
will have the initial responsibility to assess the situation, 
assist victims, and secure the scene. They will provide the 
manpower to back up the civil support teams.
    It is essential that these first responders be well-
equipped and well-trained so that they can work in concert with 
the National Guard and other Federal agencies. Establishing a 
standardized training program, including cross-training with 
the National Guard, is a critical first step.
    I have a particular interest in the training of first 
responders, as well as the National Guard Civil Support Team, 
because of the excellent National Guard training programs and 
facilities in place and under development in West Virginia. 
Although West Virginia does not yet have a National Guard Civil 
Support Team, we do have an outstanding National Guard 
operation under the direction of an outstanding Adjutant 
General, Alan Tackett, whom I often say is the best general 
since Hannibal. [Laughter.]
    Senator Landrieu. That is saying something. [Laughter.]
    Senator Byrd. He has a National Guard that is number 1 in 
the Nation in four different categories, and has been for the 
last 3 years.
    One of the crown jewels of West Virginia's disaster 
response training assets is the Memorial Tunnel near 
Charleston, a one-of-a-kind facility in which to train for 
subterranean terrorist attacks such as the saran gas attack on 
Japan's subway system. Real-life training in an underground 
environment such as Memorial Tunnel is not something that can 
be duplicated in many places.
    The Memorial Tunnel is a tunnel that was part of the 
highway that was built through there many years ago. I remember 
when I first came to the House of Representatives, we dedicated 
the West Virginia Turnpike. The Memorial Tunnel was a part of 
that turnpike, and subsequent thereto the roads have been 
changed and they have cut through another mountain so we do not 
have to use the Memorial Tunnel for that purpose. The Memorial 
Tunnel has been converted to the very excellent use about which 
we are discussing here today.
    The National Guard, in addition, is developing a 
comprehensive training center at Camp Dawson in West Virginia, 
in addition to classrooms and dormitories. Have you been up 
there, General Davis?
    General Davis. Yes, sir.
    Senator Byrd. In addition to classrooms and dormitories, 
Camp Dawson has the ability to support an array of training 
ranges to simulate terrorist attack scenarios. In fact, the 
Department of Justice is very interested in locating its 
terrorism response training at Camp Dawson.
    Finally, West Virginia University, which is located near 
Camp Dawson, houses the virtual medical campus that is being 
developed in conjunction with Auburn University. This facility 
is capable of delivering comprehensive training to first 
responders on how to identify and deal with a toxic biological 
or chemical attack.
    I traveled with President Bush recently to West Virginia 
when he met with General Tackett and members of the National 
Guard. I took that opportunity to brief the President on the 
unique facilities that are in place and under development in 
West Virginia. Due to General Tackett's vision and leadership, 
West Virginia National Guard is poised to provide one-stop 
shopping, state-of-the art training for Federal, State, and 
local agencies, including civil support teams and first 
responders.
    The National Guard is only one piece of the homeland 
security solution, but it is an essential piece, and I commend 
the National Guard Civil Support Teams for the progress that 
they have been making to date, and look forward to continuing 
to support and enhance the program.
    Mr. Chairman, that is my opening statement. I will withhold 
my questions.
    Senator Roberts. I want to thank the Senator for his 
statement, especially for highlighting the tip of the spear, 
the first responders. It is absolutely essential that these 
teams are capable of working with the first responders. That is 
a very important point.
    Senator Nelson, I want to welcome you again to the 
subcommittee, and with all of the demands on our time, it is 
not often we have members in attendance to the degree that we 
would like to have, but you have been here on time and shown a 
very keen interest. You and I both served in the House of 
Representatives together, and it was a decision of mine that 
when I became chairman of the once-powerful and sometimes-
powerful House Agricultural Committee, that I would recognize 
some of the newer Members and wait until the end of the session 
to wrap up, so I am delighted to welcome you to the 
subcommittee and to recognize you at this time.
    Senator Bill Nelson. Well, bless your heart, Mr. Chairman. 
Mr. Chairman, I can get right to the heart of the matter 
because you made a statement about the considerable importance 
to the country on the subject matter of this hearing, and so 
has Senator Byrd. We have in front of us an audit report, and 
the audit report says the Consequence Management Program 
Integration Office did not manage the WMD-CST program 
effectively. My question is, why?
    Mr. Lieberman. In retrospect, and of course hindsight is 
golden, I do not think the office had the requisite skills in 
its staff. It did not have acquisition-trained people, it did 
not have a good financial manager, and I think there was also 
probably some lack of appreciation of the capabilities that the 
Army had to support their effort. I think they meant well. They 
certainly worked hard, but I think in retrospect, as I said, 
the program would have had fewer problems had a different skill 
mix been present in the office.
    Senator Bill Nelson. No doubt you understand the 
seriousness of my question. In our form of Government, we are 
up here as overseers to see that the policy is made and the 
policy is carried out, and for people to make excuses on a 
subject of this gravity, there are no excuses, so let us go 
down the line.
    Why, General Davis?
    General Davis. I think in part I agree with what Mr. 
Lieberman said in his assessment. We were trying to do 
something in a very compressed period of time, as I indicated 
earlier, and in the interest of doing that, many times, for 
example, in the acquisition process it can take 2 to 3 years to 
acquire a piece of equipment, and certainly if there is any 
development involved in it.
    I am sure, because I know some of the folks, they were all 
well-intentioned, good Americans, patriotic folks who were 
trying to do the best to field it in a very short time period, 
as I said, trying to do in 2 months and almost in 18 months 
what is typically about a 5-year process, and so I think that 
they did not follow all of the acquisition rules as we would 
know them.
    They did not do anything illegal, sir, they were perfectly 
legal in what they did, but they attempted to bypass the normal 
acquisition system in order to get the job done in a short 
period of time, because the normal research and development 
that would be required, say, for some of the equipment we got--
because the Mobile Analytical Lab, as an example, is not a 
component of any of the other services. It is unique to this 
particular team, and I think in an attempt to compress the time 
to do that and get a quality piece of equipment, I think we 
just did not get through all the steps that we could have.
    I agree absolutely with Mr. Lieberman, in hindsight, we 
certainly would and could do it differently, but this is a 
unique challenge for the country. It is a unique capability 
that we are providing to the country and will provide to the 
country. We will go ahead and get them certified, sir. I think 
in an attempt to do that and compress the time we may have 
gotten just a little bit ahead of ourselves, but I think they 
were well-meaning people who were working as hard as they could 
to get the job done and getting it done we may just have missed 
a few beats at the drum, sir.
    Senator Bill Nelson. General Maples.
    General Maples. Sir, if I could just distinguish between 
management process and management outcomes, because certainly 
the CSTs that we believe we have trained, equipped, and 
fielded, and that were very close to certification on, are an 
outcome of the program.
    The program was set up as a special management program to 
integrate a number and a wide variety of functions, and the 
Army agrees that within the program itself, that it did not 
have trained acquisition personnel, but I also would state that 
the program tried to use existing acquisition agencies to 
source and to acquire the equipment for the teams.
    The management program attempted to follow all of the 
guidance, all of the direction, all of the policies that they 
were given with the intent of providing the best possible team, 
the best possible program in support of the Nation.
    Senator Bill Nelson. General Lawlor.
    General Lawlor. Thank you, sir. The Joint Task Force Civil 
Support really had no role in any of the standup of the CSTs. 
However, I personally was working in the Deputy Chief of Staff 
for Operations for the Army at the time, and was very much 
involved in the standup, so if I may respond to your question 
from that perspective.
    I think in line with what General Maples has just stated, 
and it cannot be understated how the sense of urgency to move 
on with this mission affected us when we were standing these 
up. No one has forgotten that on the day of the Oklahoma City 
bombing the threat posture in this country was negligible, and 
so we were working very hard to stand up a program very 
quickly.
    I think that in terms of the outcome, I recognize that some 
of the comments in the IG's report are valid. I would dispute 
others, but I think, as I understand it, the comments that were 
made critical of the program have by and large been addressed 
as the system has worked its way through the issues that have 
been raised, and that we are now in a position to move forward.
    I would offer for you that in the context of urgency, there 
is no structure, no doctrine, no paradigm to do what we are 
doing. There is no prior experience. This is a first-of-its-
kind organization, built with first-of-its-kind doctrine, 
trying to understand problems that have never confronted the 
country before, so we moved very quickly within that system.
    If I can use doctrine as an illustration, the standard 
normal time it takes to process doctrine within the service is 
24 to 33 months, and that assumes that it goes very smoothly. 
In this field, where there was no prior experience, that 
assumption is probably a little bit problematic.
    So rather than wait for 33 months before we began the 
program, we brought together a group of the best people that we 
could find, and we wrote a manual to guide the CSTs and to 
guide the training. That manual has now been staffed at least 
once through all of the formal processes, and frankly there has 
been a few changes but not many changes from what we initially 
wrote, so I think we got most of it right. We did make some 
mistakes, but I think by and large the program is on track.
    Senator Bill Nelson. Mr. Chairman, obviously where you are 
trying to go is in your oversight capacity to see that this 
program is working. You certainly have my pledge of support in 
whatever capacity you want me to assist you.
    Well-meaning and good intentions will not cut it on 
something of this seriousness, and so whatever you want to 
pursue, just count me in to help you.
    Senator Roberts. I thank the Senator, and I thank him for 
his comments.
    Senator Byrd, I think I am going to ask a few questions if 
that is all right with you, sir, and then we can come back to 
you. The distinguished Ranking Member will be returning soon.
    I am going to start with Mr. Lieberman and go down the 
panel. Who in the Department of Defense now has the policy 
oversight in regards to the management of this program? By the 
way, gentlemen, I have a lot of trouble saying WMD-CS teams. 
That is a mouthful. We used to have a rule in this 
subcommittee, if you said an acronym and you did not explain 
what it was before saying the acronym, you had to put a dollar 
in a fish bowl. We could make a substantial contribution to the 
Defense Department budget if I would enforce that rule.
    Now, we thought about renaming them. They were RAID teams. 
I am not saying it is within my capability to change an 
acronym. With Senator Byrd, he can do almost anything in an 
Appropriations bill. [Laughter.]
    Senator Roberts. You might want to think about what kind of 
an acronym would be more appropriate so that the American 
people would understand exactly who these people are. These are 
the people that are 4 hours away from any incident, to provide 
help. Civil Support Teams, that makes sense, but that is really 
a mouthful in terms of the acronym. You might want to have an 
acronym that spells out BOB, or maybe TED and BOB. Maybe that 
would work in terms of the funding, I do not know.
    So, Mr. Lieberman, who in the Department of Defense now has 
the policy oversight over the management of these teams?
    Mr. Lieberman. At the OSD level, the senior official is the 
Assistant to the Secretary of Defense for Civil Support. There 
are several OSD entities that are involved on a joint basis in 
overseeing this program.
    The Office of the Assistant Secretary of Defense for 
Reserve Affairs has a very central role, and also there is a 
Deputy Assistant to the Secretary of Defense for Chemical-
Biological Defense who works the acquisition end of things, so 
there are multiple OSD offices involved right now. I do not 
know whether that structure is going to be maintained by the 
new administration or not.
    Senator Roberts. Well, that is part of the problem. If part 
of the problem is on this side in terms of working with CoMPIO 
to try to plus-up from 10 to 17 to see if it would work, asking 
CoMPIO if, in fact, that number could be handled, we need to 
get our arms around this.
    We need to get that capability up and running, and 
perhaps--I noted several of you have indicated, in terms of the 
direction of the subcommittee and Congress and what happened in 
the authorization bill and in the appropriations bill, maybe we 
were a little too hasty in this regard, but our idea was that 
we had this threat out here. It is a very real threat.
    General Lawlor is in charge of that whole arena, and we 
wanted to make sure that since it was threat-driven and was 
becoming more serious, we wanted to be 4 hours from anywhere. 
The staff went to CoMPIO and asked, ``can you handle it,'' and 
they said, ``yes, we are very eager to do it, very positive to 
do it.''
    I am not trying to put any recrimination or any blame on 
CoMPIO. They have enough of that on their shoulders already, 
but I am reminded about a year ago, when we had the 
administration up, and we had four people within the Department 
of Defense, and we said, in terms of counterterrorism, in 
terrorism, and also homeland defense, who is in charge? Then 
being a little mischievous, we had them line up in order of 
seniority, and then I said, why don't you line up in order of 
your command structure? Nobody knew where to sit.
    Now, you just indicated that we are not quite sure as to 
who is in charge of this, and I think that is one of the 
biggest challenges that we have.
    Mr. Lieberman. Senator, that is not what I intended to say 
exactly. I do believe the Assistant to the Secretary of Defense 
for Civil Support is clearly the tip of the pyramid, and all 
these other offices are supposed to be supporting him or her, 
whoever that turns out to be. There is another problem right 
now, because we have lots of vacancies in the Department of 
Defense.
    Senator Roberts. Amen to that. I wish we could speed up the 
procedure not only in the Department of Defense, but every 
other Federal agency. That was the point you were trying to 
make, that there is the top of the pyramid, there is somebody--
in terms of management outcome, management process. How about 
management responsibility?
    I do not know of any place in the legislation when we 
passed it that said hurry up, but do it badly. That was not in 
the legislation, so we do have somebody in charge in terms of 
the ``TO'' chart, and I guess that was my question. In your 
view, was it a mistake for the department to have established 
CoMPIO back in March 1998, or should the department have used 
an existing entity within, say DOD? That is hindsight, 20/20, I 
understand that. What do you think?
    Mr. Lieberman. It could have worked, but I think special 
management structures in the Office of the Secretary of Defense 
did not have a great history. Most of them do not work, so I 
think the setup we have now is the optimum one. We were pleased 
with the outcome of the deliberations over the last few months, 
on how to realign responsibilities.
    Senator Roberts. All right. The certification process. The 
IG report states that CoMPIO failed to assure that training 
provided ensure the proficiency required by Section 511. This 
is one of our requirements. We passed that in the Defense 
Authorization Act of 1999. Could you just tell us a little bit 
about the certification process, and why the IG audit concluded 
that CoMPIO was not complying with the requirements of Section 
511?
    Mr. Lieberman. Certainly. Section 511, and that was the 
quote that I read earlier, basically says that every person in 
the team has to be proficient in using whatever equipment they 
have in performing the mission. In the haste to get these teams 
fielded, the training started to occur before the equipment 
arrived, so you had a lot of training activity going on with 
units doing the best they could, but with only part of the 
equipment that they were going to use.
    The external evaluations are the most glaring example of 
that, where most of them were done without the teams having 
some of the most fundamental equipment that they were supposed 
to operate with. Also, in some cases, not all of the team 
positions had been filled yet, and these teams, being small, do 
not have a lot of redundancy. So if your chief science officer 
is not chosen yet, you have a big gap there, and the training 
really cannot be realistic and cannot reasonably assure that 
the team is competent if it has to be done under those 
handicaps.
    Then, of course, the idea that the doctrine was evolving, 
what they were supposed to do was evolving, and the different 
choices were being made about what equipment would be there 
eventually, means that whatever training was done may or may 
not have been most efficiently focused on exactly what that 
team will end up having to do. So it was a very difficult task 
to try to keep all of these balls in the air at the same time. 
One of the areas that suffered, I would say, was the adequacy 
of training.
    Senator Roberts. That testimony is extremely helpful. Where 
did CoMPIO go astray on an implementation plan? Was there an 
implementation plan utilized to establish CoMPIO and a 
blueprint that they could follow?
    Mr. Lieberman. I think CoMPIO went astray because they were 
given too long a leash and not enough advice. The program was 
managed very much on an ad hoc basis because of the urgency, 
and they tried to do a lot of things in certainly very 
different ways than the department is used to doing them.
    I do not accept the idea that if you use any of these 
standard mechanisms it is necessarily slow as molasses. There 
are ways to expedite things, particularly when you are dealing 
with a very high profile program. I think senior leadership 
could have intervened if they found that the bureaucracy was 
being unresponsive to their requirements and moved things along 
quicker than normal. I do not think that they were required to 
set up a good acquisition plan. I do not think they had good 
program metrics so that people could judge how well they were 
doing.
    I wish personally we had done our audit a year and a half 
or 2 years before we did. If we had gotten in on the front-end, 
we could probably have pointed out a lot of the weaknesses in 
the planning up-front. It is a shame we had to be ``Monday 
morning quarterbacks,'' but that is the way it turned out.
    Senator Roberts. Part of that might have been our 
responsibility. Maybe we should have had you in the ballgame on 
Saturday. What role, if any, is your office playing now in the 
program review?
    Mr. Lieberman. We are an integral part of the team, and I 
think there has been a lot of emphasis today on what people 
disagreed about in the January report, but I think the good 
news is that there has been a very cooperative attitude by all 
parties. My staff, and the auditors who did the audit, are 
still working on this project.
    It is a rare occasion where we get to help fix the problem 
that we found. Frankly, I think that is an excellent model for 
an IG, and we have been very pleased that the Army, OSD, and 
the Guard Bureau have let us continue to be players. I am 
personally part of the senior management oversight team that is 
trying to move this whole thing forward.
    Senator Roberts. I want to talk about that attitude of 
cooperation. The Army response to your draft IG report was 
approximately 90 pages. Why did the final IG report devote only 
5 pages to addressing the Army's response? I have a feeling 
that it is probably unsaid that the Army feels they were 
bypassed in this deal.
    Maybe bypassed is not the best word, but that we have a lot 
of people now who are new in regards to OSD, but we have a lot 
of people in uniform who are taking the heat, and if they had 
90 pages of commentary saying, ``now wait a minute, let us take 
a look at this,'' and you only had 5 pages back--is this a 
little out of balance? I am just being the devil's advocate 
here on behalf of the Army. What do you think? You are 
working--and you have good--you like General Maples, don't you? 
[Laughter.]
    You all get along, and you are cooperating on this.
    Mr. Lieberman. Many years ago I wore Army green myself.
    Senator Roberts. You see where I am headed with this 
question.
    Mr. Lieberman. Sure, and I think it is a fair question. 
Frankly, the very volume of the Army response made it almost 
impossible for us to follow our normal procedure, which is to 
publish the entire response verbatim. In most of our reports we 
do that. In this case, the response was far longer than the 
report itself, and also it went to a level of detail that I do 
not think really we could have coped with in the normal manner 
of responding ``tit for tat,'' and I think the important items 
would have gotten lost.
    I think my main problem with the response was, that we were 
expecting more documentation of things that had actually 
happened, rather than just assertions that they had happened, 
which in our view did not move the process forward very much. 
We tried to capture the most important parts. Again, would 10 
pages have made people happier? I really do not know, but I 
think the important thing is that since January there has 
developed close to a consensus on where all of these particular 
points stand.
    One can argue about when exactly it was they were fixed, 
but the important question is, are there still unresolved items 
there now or not?
    Last winter, there was a bitter dispute about whether there 
were safety issues with the Mobile Analytical Laboratory System 
van, and now, as you just heard, there is an elaborate test 
being laid on, because I think there is a consensus that yes, 
there are safety issues. So I think everyone involved has come 
a ways since that report was written.
    Senator Roberts. That is good news. I just want to ask you 
a basic question here. Do you believe the fundamental mission 
of the CSTs is a sound one?
    Mr. Lieberman. Yes, I do.
    Senator Roberts. All right. I have another basic question. 
We started out in this business thinking that a 4-hour response 
time for the CSTs was a reasonable response, that it could be 
done. Was that goal simply unrealistic, and if it is, what is a 
realistic response time?
    Mr. Lieberman. That depends upon how many teams there are, 
and how much geographical distance we are talking about.
    Senator Roberts. Which is why the subcommittee decided to 
do what we did.
    Mr. Lieberman. The idea was to make extensive use of air 
assets to move the teams around. I would have to defer to the 
other panel members on current doctrine. It seemed to us that 
as of last year all the planning was for travel by road, which 
is not going to give you a 4-hour response time in big states, 
but I would have to defer to the others.
    Senator Roberts. Let us go down the line. First, do you 
still believe the fundamental mission of the CSTs is a sound 
one? Second, is the goal realistic in regards to the 4-hour 
response time?
    General Davis.
    General Davis. Mr. Chairman, I think it is fundamentally 
sound. We know we have to have some capability out there. The 
discipline and vigor of the way the military trains in order to 
respond definitely works. We do know that, particularly in the 
Guard.
    As we worked with the local responders when we have floods, 
hurricanes, tornadoes and that type of a disruptive event to 
the civilian populace; we are fairly and routinely involved in 
those kinds of activities, to include today. I think we have 
about 700 or 800 people I believe, something like that, up in 
Minnesota, Iowa, Illinois, maybe a few less than that.
    So yes, I believe it is fundamentally sound, and I believe 
we have that duty and obligation to the American public to do 
everything we can to assist them to ameliorate any major 
inconvenience like you have in a flood or certainly in a 
weapons of mass destruction incident.
    The original feeling of stationing of the teams when there 
were only 10 teams I will have to go into a little bit on this, 
sir, if you do not mind, was based on the 10 FEMA regions that 
were assigned accordingly. Following further discussion here, I 
think the subcommittee decided we were going to need more teams 
than that, because just given the geography, you work within a 
FEMA region, which could encompass three to five states or some 
seven states in one particular instance, that we could not get 
there in the allotted time, so additional teams were fielded 
and some 27 total additional teams.
    When these teams were fielded, instead of using a 150-mile 
radius, as they had done with the initial teams, these teams 
were fielded with a 250-mile radius, and a part of that 
fielding process, there are a number of factors that went into 
it. They looked at the threat assessment, the Federal region 
that they were going to cover, the coverage of major population 
densities, or major cities within that, the existing facilities 
and stations that were out there, as well as the technical 
analysis. The Army concept analysis was brought into that, and 
they were dealing with data bases on census.
    So I think these were done, and when the distance was 
raised to 250 miles, they were trying to cover as much of the 
United States population as was possible. With 250 miles you 
could not traverse 250 miles in that 4-hour time period, so a 
reasonable time came back as about 6 hours for the entire team 
to get there, and with some attempt to get the teams there at 
an earlier point, say an advanced part of the team at an 
earlier point, so I think that is why the radius was extended 
to 250 miles.
    This, by the way, would in part be justified, at least 
because it will cover 92 percent of the population of the 
United States. If I am part of that 8 percent, sir, I am not a 
happy camper, but we would be able to move the teams with 
aviation assets. We have done some amount of study on the use 
of aviation assets.
    As a matter of fact, the fielding of a number of our teams 
are in positions where they will have access to a C-130 so it 
can move a significant part of the team to an incident site, 
sir. A lot of that was factored in as a part of the fielding 
process, but in an attempt to take the initial teams and put 
those out and then field additional teams, some of the teams 
might not have been fielded where they were if we had known we 
were going to have 32 teams at the time, or the 27 teams that 
are currently being fielded.
    Senator Roberts. Senator Landrieu has a very tight time 
schedule. I am going to yield to her, but General Maples, do 
you have any quick comment on whether or not you think that the 
plan is a sound one?
    General Maples. Sir, I will just make one comment, I think 
the teams are absolutely essential, and they are doing what 
they were designed for. I base that on my own experience in 
talking to first responders, and the kind of expertise and the 
knowledge that they can gain from the team members. I have had 
them report that to me, that they have already seen benefit in 
the communities. Even though the teams are not operational yet, 
they are training, and their interaction with the first 
responder community is paying us great dividends already.
    Senator Roberts. That is absolutely key. That is going to 
be a follow-up question to you to go into some detail. General 
Lawlor, do you want to quickly respond?
    General Lawlor. I would agree with what General Maples 
said.
    Senator Roberts. Senator Landrieu.
    Senator Landrieu. I really appreciate this hearing, because 
I think it is very important for us to focus on this issue. The 
more I think about it, read about it, listen to the comments, 
and read this report--the more it is highlighted. I would 
suggest, after reading this report, that one of the serious 
problems seems to be a lack of clarity in the law, procedures, 
memorandums of understanding, and other organizational 
constructs, which has given us what we define as an unclear 
chain of command.
    It is not that the people involved are not enthusiastic, 
motivated, well-trained, and well-educated for the task before 
them. They have performed similar functions very well, but this 
is quite complicated, I think, to try and give an immediate 
response.
    We might set our sights on 4 hours, but frankly, if I were 
a victim, I would like for somebody to arrive a little sooner, 
if possible, than 4 hours. I would like to challenge our 
subcommittee to think about that. We have a tremendous 
infrastructure of people out there in the United States; well-
trained, well-educated, highly motivated, and trustworthy 
people on the ground, whether they are fire fighters, police 
officers, et cetera.
    I know this is a system that we are trying to actually 
enhance, strengthen, or focus for the purposes of responding 
when a specific attack occurs. If we can facilitate and 
strengthen what is there so the taxpayers' money gets spent 
wisely, we become a facilitator. Like the loaves and the 
fishes, we take what is there, create the links, and perform 
miracles to expand so that if a crisis happens we can respond 
anywhere, any time--in a small community, in a big community, 
in a rural area, in an urban area--because we have been smart 
by thinking in advance, and not limiting ourselves.
    So I am going to be thinking--I do not have an answer--
about what we need to do to help to create, I think, the most 
effective system possible.
    Mr. Lieberman, I would just like to ask you one question. 
In light of what I said, what are the one or two things this 
subcommittee should focus on? Perhaps we need to readjust our 
sights. Based on your report--I know there is no magic bullet 
to fix it--but a couple of things that maybe we could do to get 
the program back on track? Is there anything that you would 
like to offer for the purposes of this hearing?
    Mr. Lieberman. I think the department now has a handle on 
what needs to be done to field these 32 teams, if everybody 
still agrees we need 32. However, I think there still is a 
certain amount of mission ambiguity, frankly. How do these 
teams fit in to that picture you just described, where you have 
local, State, multiple Federal entities with capabilities, and 
all need to find a way to work together. I think some of these 
studies that you quoted earlier, Mr. Chairman, such as the 21st 
century study, have made the point that on a Federal 
Government-wide basis, a lot more needs to be done to bring 
some coherence to this picture.
    There are so many cooks in the kitchen, and the mix and the 
problem are going to be different at every single possible site 
of an incident, because local capabilities are always going to 
vary dramatically.
    Whatever can be done by Congress and the administration to 
bring coherence to this whole picture is important. There are 
several bills that have been introduced in this session I 
believe already. There is one to establish a Homeland Defense 
Agency. I frankly do not know whether that is a good idea or 
not, but there has been some thinking going on and some 
innovative suggestions made.
    But I would suggest in terms of national priorities, 
national defense priorities, this is one where Congress itself 
is going to have a problem because of the way your committee 
structure is set up. Committees with different jurisdictions 
are going to have to find a way to work together also on these 
problems; so it is a very interesting problem from the 
political scientist standpoint.
    Senator Landrieu. Since our chairman here is so skilled 
with his interpersonal relationships, we are counting on him 
and Senator Byrd to lead us in this regard.
    I think in all seriousness this is a very important issue 
for us to stay focused on and to try to work it out, because if 
you do not address the top piece, no matter what direction you 
move, you are going to end up with confusion and with reports 
like this, with us not being able to accomplish the mission. 
This is complicated, but I am sure we are not the first nation 
that has undertaken it, and I think it is worth our time. Thank 
you, Mr. Chairman, for calling this subcommittee hearing today.
    Senator Roberts. Let me tell my colleagues that Mr. 
Lieberman has really put his finger on it. Ever since the 
President came down with PDD-62, which was the presidential 
directive indicating the Justice Department was the lead 
agency, and assigning Mr. Dick Clark to be in charge of that, 
and Dick is still on board and doing a good job. It is a very 
difficult job--those of us that have the jurisdiction in the 
committees and the subcommittees took a hard look at this, and 
we have determined that there are 46 Federal agencies that have 
some jurisdiction.
    I am an event-oriented person, and so I am trying to figure 
out, all right, if there is an incident--and you can name your 
incident. It all is pretty shocking in regards to what can 
happen, and General Lawlor can testify to that, and we have 
several operations. I am familiar with the TOP OFF exercises, 
the one in Denver, was right next to Kansas, so I took 
exceptional notice of that. But an anthrax attack, what happens 
once this event actually takes place? Who is in charge?
    You are exactly right. The Senator has put her finger on 
it. It is that first responder. They are there. Now, what do 
they do? How do they get guidance from the Federal Government, 
and how on earth do we get 46 Federal agencies to work in any 
kind of a cohesive fashion?
    We are going to have a hearing May 8, 9, and 10, the Senate 
Select Intelligence Committee, with Chairman Shelby and Co-
chairman Senator Bob Graham of Florida. We have the Senate 
Appropriations Committee, I would tell the distinguished 
Senator from West Virginia, with Bob Byrd and Ted Stevens, and 
we have the Subcommittee on Appropriations headed up by Senator 
Judd Gregg. We have the Armed Services Committee with Senators 
Warner and Levin, and then we have some fellow named Roberts 
and Senator Landrieu in regards to the Emerging Threats and 
Capabilities Subcommittee with the DOD piece. We are going to 
have a hearing May 8, 9, and 10, and we are going to ask all 46 
agencies to come in.
    We are going to ask them three questions: What is your 
mission? What is it that you do? Most importantly, who do you 
report to?
    Now, you have indicated, Mr. Lieberman, one of the real 
problems we have. We have eight committees, probably more, but 
at least eight, and seven subcommittees that have jurisdiction. 
We have made a proposal in a bipartisan way to the leaders of 
the Senate to say we need, pardon the expression, a ``belly 
button'' task force to coordinate at least once a month so we 
know what we are doing up here.
    It is enough for us to sit back and ask the questions that 
our staff prepared that make us sound fairly intelligent about 
this. At least we have the expertise and we get the acronyms 
right and all of that, but it is another thing for us to get 
our act together.
    Now, this is a tremendous undertaking, so it is a little 
bit disingenuous to point fingers at CoMPIO, or several people 
who happen to be in the audience today and say, ``wait a 
minute, this has all been your fault.'' This is brand new, that 
if we do not get some Federal response, and the order of 
things, as described by General Davis, I think it was, that 
link of communications back to General Lawlor--what are we 
dealing with here? How can we address this?
    It may be the CDC. It may be first responders, and the fact 
that we just do not have enough hospital beds to deal with 
people, things of this nature.
    It is a big problem, and I did not mean to get into a long-
winded speech there, but I think if you have any specific 
suggestions as to how we can reorganize, or do something 
legislatively in your field of expertise, we sure need to hear 
from you.
    Senator Byrd.
    Senator Byrd. Senator Nelson also was interested in 
knowing, and so am I, who is accountable? If we are going to 
conduct oversight, which is one of the great responsibilities 
of Congress, who is accountable down there? If we are going to 
conduct oversight, we should know who is accountable, so I am 
going to ask that question for Senator Nelson. Who is 
accountable? To whom should we look for accountability?
    General Davis. I think the way we have established things 
in the Department of Defense, it is the Assistant to the 
Secretary for Civil Support, and that is the way we have 
identified at least in preliminary interim guidance, sort of--
the new Deputy Secretary of Defense signed off on the interim 
guidance. There are a lot of parts to that, I would suggest, 
though, as Mr. Lieberman said. There are a number of other 
agencies within the department who have that responsibility and 
would have to work part of the issue, but that would appear to 
be where it would rest.
    General Maples. Sir, if I could comment also that the 
decision that the Deputy Secretary of Defense left program 
management of these teams with the Army, and specifically 
identified a Special Assistant to the Secretary of the Army for 
Military Support as the program manager, and within the Army, 
the program management of these teams will continue and that, 
in fact, the proponency for that has been vested in the 
National Guard Bureau for further management of the teams.
    General Davis. Sir, related to that, and the question 
Senator Landrieu got into, the number of teams, I think part of 
what the DODIG report did was to talk to certification of the 
teams, and so the action plan has again been broken out into 
two parts, one to get the team certified, and two, a 
comprehensive program review.
    As a part of that review they will be looking at a number 
of other issues; looking at the mission of the teams; how many 
teams; they should be looking at demographics; possibly using 
the new census data, if that has been approved; looking at 
individual training; and a lot of the issues that were raised 
in the IG report, so we do not go back over that ground again 
in the future, what is the proper mode for doing evaluations 
and assessments of the teams' capabilities, funding profiles 
sustainment, those kinds of things.
    There are a whole number of issues that we will be looking 
at as part of that program review, and many of us in the 
Department of Defense are involved in that program review of 
the civil support teams, sir.
    Senator Roberts. I hear a lot about missile defense shield. 
It seems to me that here we are talking about something that is 
really important, and that can really be done. I do not know 
about a missile defense shield that would guard against 
submarines out there, but here is something that may happen to 
this country, and probably will, but it seems to me that 
somebody ought to be in a position to bump heads together and 
get the coordination, cooperation, and tie all the loose ends 
together. That is what I am sure that Senator Nelson had in 
mind.
    Have we gotten an answer to that question?
    General Davis. I think that is part of the frustration of a 
number of us who deal with the issue of dealing with parts and 
pieces of the issue, and looking at the Gilmore Report. 
Governor Gilmore's second report talks about a czar, and the 
difficulty with that from the standpoint of the Hart-Rudman. 
You would have somebody who is in charge of policy, like we 
have for the counterdrug czar, but that person does not have a 
funding line and does not have all the other requirements and 
the resources to put anything in play other than providing 
policy.
    Senator Byrd. It should not be so difficult to get a 
funding line if the President of the United States gets behind 
this. You ought to be able to get a funding line.
    General Davis. Sir, the way the Gilmore Report is done, it 
would work with the existing agencies that are out there. The 
Hart-Rudman would construct a superagency, you are aware, I 
think perhaps, and which would have that funding line, and 
would be charged. So you have--as you said, Senator Roberts, 
one ``belly button'' would be the super czar.
    Senator Roberts. If I might, Senator, most of these 
reports, most of these task forces do have super-qualified 
people, and people that you and I both know and whose judgment 
we have relied on in the past considered this threat so 
serious. You mentioned the missile shield, which is obviously a 
very real threat, as we are considering that, but all four 
them, and as I say, there may be five or six of these reports, 
indicated it was so serious that they thought the Vice 
President should be in charge of this.
    Hart-Rudman, I think I am correct, and General Davis, you 
correct me if I am wrong--indicated that we need a czar, 
somebody like Admiral Rickover in regards to his efforts, or 
somebody like General McCaffrey in regards to the drug war. We 
declared war on drugs 10 years ago. The results have not been 
what we have hoped them to be, but we have a drug czar--and we 
need a terrorism czar, if you will, or counterterrorism czar.
    How do you define terrorism? Senator Bennett and I early on 
asked Condoleezza Rice where is the administration really 
thinking they are going. She said, give us 2 or 3 months. Now, 
it is my understanding that a proposal has been made to 
separate this out into cyber threats and into a biological 
component, and then into counterterrorism.
    But you are exactly right, we need somebody with enough 
authority, with enough power, to make these decisions. Now, 
that is overall. Within the Department of Defense I think we 
have the capability, within the Guard and within the management 
structure that they have proposed to at least get this 
particular program, the CSTs, or whatever we finally call them, 
to have that immediate response capability so that we know what 
we are dealing with immediately. The chances are the first 
responders would not know that. That is a pretty good response, 
but the Senator's request is the one that is being asked.
    By the way, Senator, Hart-Rudman said this was so serious 
we ought to merge the authorizing committees with the 
appropriations committees. I suggest they talk to you about 
that before they make any more recommendations.
    Senator Byrd. They will get a quick answer on that. 
[Laughter.]
    Let me ask two or three other questions. There are five 
more teams that have been authorized but not yet sited. Where 
is West Virginia in the queue?
    General Davis. Sir, as I said a little earlier, this 
program review is going to look at it and see how many teams we 
really need, and the five teams have been authorized, and those 
are on hold now until we can complete this program review. It 
is anticipated it will be culminated about 1 August, so 
sometime in about that time frame.
    Senator Byrd. I noticed in this map 27 teams within a 150-
mile radius, that nearly two-thirds of the State of West 
Virginia is not within a 3-hour driving radius of any civil 
support team. We have some pretty mountainous terrain down 
there, and I see also that some of Kentucky and Ohio likewise 
is in the same situation. Do you believe it would be prudent to 
have a civil support team in the area there in West Virginia?
    General Davis. Yes, sir, if you want one. [Laughter.]
    I think we really do need to do this comprehensive review, 
though, Senator, and when we started out with the 10 teams we 
put them in places which, if we had started with 32, we might 
have done that differently, sir, I would suggest to you.
    I do not know for certain, but just looking at the chart, 
and I have a similar chart to yours here, sir, there are a 
number of areas in the country that are not covered by these 
teams, and it may be that 32 is the right number, it may be 
more, it may be less. What we would like to do is have some 
kind of a scientific assessment of that and look at where we 
position the teams and see where we need additional teams, or 
whether we need to perhaps move some of the teams to a 
different location. It is very difficult to do, obviously, but 
we need to work our way through that, sir.
    Senator Byrd. All right. Facilities are in place and 
continue to be developed in West Virginia to complement the 
homeland security concept. West Virginia hosts facilities that 
would enable civilian-first responders, Federal, State, and 
local, an opportunity to cross-train with military personnel 
and to respond to a variety of scenarios.
    I know you have been at Camp Dawson, General, and I invite 
the others to go, and also I invite to the Memorial Tunnel 
facilities, if they are down in that area, or if you have a 
convenient moment to do so. Do you agree that a combined 
facility, remote from but within reach of the Nation's capital, 
could provide a university of knowledge, a brain trust, a 
premier training facility for first responders and others 
involved in homeland security?
    General Davis. Yes, sir. We have a number of facilities 
around the country where we could do that, and certainly Camp 
Dawson represents one of those.
    Senator Byrd. On the subject of acronyms, Mr. Chairman, the 
Romans had a great military establishment, probably one of the 
greatest the world has ever seen, the Roman legions. I only 
recall one acronym that they used. That was Senatus Populesqu 
Romanus (SPQR), the Senate and the Roman people.
    Speaking of acronyms in our day and time, there has been a 
proliferation of them. My staff has one suggestion for renaming 
the WMD-CSTs. Back Yard Ready Defense Teams, BYRD Teams. 
[Laughter.]
    Senator Roberts. We will take that under very serious 
advisement, Mr. Chairman. [Laughter.]
    What was that?
    Senator Byrd. Back Yard Ready Defense Teams.
    Senator Roberts. That has some possibilities, very definite 
possibilities.
    General Davis, in your effort to go out and personally 
visit with the greatest general since Hannibal, have you had 
the opportunity to view the training and interact with the 
personnel on these teams not only in West Virginia but all 
around the country?
    General Davis. Yes, sir. I was out in the St. Louis area, 
actually at Scott Air Force Base, Illinois, about 2 weeks ago, 
and had a chance to meet with Team 7 and Team 5 from Illinois 
and Missouri respectively.
    Senator Roberts. When you do that, do you talk with the 
State and local officials as well?
    General Davis. On this particular one we did not have a 
chance to do that. They brought in some of their equipment and 
set it up at Scott Air Force Base and we had a number of 
Adjutants General who were out there who had an opportunity to 
go in and observe these.
    It became very important, because most of the Adjutants 
General who were there did not have CSTs, so a lot of them had 
the chance to come out and talk to the individual members. They 
had set it up in a mock environment, as they would be forward-
deployed, where they had a decontamination area, and then they 
had the subject matter experts there, so it was a good 
opportunity for a lot of us to get out there and talk to them 
first-hand.
    Last Thursday, we had a video teleconference with six of 
the other teams, and two of the teams, the team up in 
Massachusetts, along with the team from Texas, had some of the 
first responder folks there with them. We had the Highway 
Patrolmen, a major in the Highway Patrol, a State Patrol in 
Massachusetts, who talked to us about some of the things they 
did, along with another law enforcement official. We had two 
firemen and a law enforcement official down in Texas.
    I have also had the opportunity to work with the National 
Sheriff's Association and fire-fighting organization, the 
National Association of Chiefs----
    Senator Roberts. That gets into the question I was going to 
ask in regard to General Maples, in regard to all of you, in 
your efforts to contact the first responders.
    We just had a hearing this morning in the Armed Services 
Committee in reference to the V-22, the Osprey. I am not going 
to go into all of the details, but I think in terms of 
technology, that is an aircraft really for the future, and 
certainly despite the problems we have experienced, and we 
talked about the 250-mile radius in the C-130.
    The technology is sound. If we can really produce that 
aircraft in the way that it should have been produced, it seems 
to me there is an exciting possibility in regards to the CSTs, 
and I just make that as an observation, and certainly Senator 
Byrd, that would mean that there would be less than 3 hours. It 
would not be an hour and a half. It would not even be an hour 
in regards to having the people on site, and since we had that 
hearing as of this morning, I thought I would mention it.
    I am a little concerned in regards to this, General Davis. 
You cannot respond unless you are certified, and the Governor 
must deploy the aircraft certification. According to the 
January IG report, we have 10 that are in status that should be 
certified and operating, and 17 where they should be in 
training. We are wondering if the certification is too high.
    I went into that to some degree with Mr. Lieberman, and 
then they have to be certified by the Secretary of Defense. We 
might as well move it up to the President. I do not know of 
anybody in the military that operates this way.
    General Davis. Sir, that was a bit unique. That was one of 
the challenges we had in 1999, when they passed the Defense 
Authorization Act and they put that in as a requirement, number 
1, to stand it up at C-1. We normally have initial operational 
capability at C-3 for most of our operational organizations as 
we stand them up, particularly when they are new capabilities 
and we bring them on board, and normally that certification is 
done within the service component.
    Senator Roberts. I do not think you are at C-1 now. I think 
there is another requirement. Is it not C-3? I have another 
question, but I am wondering--and we need to get on with this. 
Let me just say that that is an area where we might want to 
take a look at the legislation in regards to some flexibility 
in Section 511.
    You mentioned decontamination. Are there any plans to 
expand the function of the BYRD Teams? [Laughter.]
    General Davis. At this point, no, sir, because one of the 
difficulties in doing that, they have a lot of capability to 
respond to incidents, and they work very closely with the 
HAZMAT teams in most of the local areas. I have had a chance to 
talk to a couple of the HAZMAT team members and leaders, and 
they have very high opinion on our folks. They say they are 
some of the best folks that they have ever seen, and in many 
cases far better trained than local HAZMAT teams are.
    The initial thrust was to make them available so if we had 
a catastrophic event they would be available. I think in 
something less than a catastrophic event, once they are 
certified, the Governor would have the authority to employ 
them, sir.
    Senator Roberts. But you know what is going to happen. 
Senator Byrd knows what is going to happen. I know what is 
going to happen. They are first on the scene. They are the 
scouts for the joint task force, letting you know exactly what 
the situation is. They establish the link in regards to 
communications. They let you know the situation on the ground, 
and can give advice and counsel to the first responders, and 
they detect whether or not a weapon of mass destruction was 
used, obviously if it is nuclear you are going to know that, 
but in regards to a plume or something like that, with 
biological, say, contamination, and then the first responder is 
going to turn to them and say, in words that everybody can 
understand, what do we do now.
    I just think when we get to that training, sooner or later 
that is going to have to be more robust, State-to-State 
compacts, National Guard mutual assistance compacts. Are you 
confident that States are willing to allow their teams, the 
BYRD Teams across State lines in regards to a WMD event, that 
one Governor will let them go to another State?
    General Davis. I am pretty comfortable with that. We went 
through that exercise last year as we turned to Y2K year over. 
We had a number of States which did not have aviation assets, 
and as we set up a secondary communications network in two 
instances, I believe, the Governors actually came on board and 
agreed to do that, and sent the paperwork through the faxes 
electronically to follow up.
    I believe they will do it, sir. As we talked about team 1, 
which is up in the northeast, in Massachusetts, as we talked to 
that team, one of the things that came out the other day, and 
the Massachusetts State Patrolman was talking to it, they have 
gone across all their State lines, and he says, I think you can 
look at it as a borderless northeast, because wherever those 
teams are needed, the States that have them are going to share 
them.
    Senator Roberts. It is a frightening thought, but go ahead.
    General Davis. But they have done that, and I think you are 
aware of some of the compacts. The example your State is 
involved in, in the Southwest Governors, the Southern 
Governors, which is another major compact, and so we have 
compacts all over, and we do move resources around.
    Recently, two summers ago, I was down in North Carolina 
when they had the flood of the Tar River, and we had assets 
there from Texas, Kentucky, and I believe Georgia. They were 
heli-lifting and rescuing people from the rooftops all over 
North Carolina. I think the Governors do get together when one 
of them has a major crisis and they see the need to support one 
another and they get out there and make it happen, and they 
have arrangements to do the compensation, moving of funding 
back and forth.
    Senator Roberts. I am not going to try to delay this too 
much longer, but I do have a couple of pertinent things. I am 
going to move to General Maples now. General, give me your 
thoughts on the department's decision to assign the National 
Guard Bureau the responsibility for all management functions of 
the CST program. Any thoughts? Just in general, are you 
comfortable with that?
    General Maples. I believe the program management does 
belong to the Army as a whole, and that the Army as a whole has 
the responsibility associated with that. The National Guard 
Bureau will have those management functions, but that does not 
divorce the remainder of the Army, the Army staff, our Forces 
Command, and our Training and Doctrine Command, from their 
responsibilities that are associated with those teams as well. 
We are going to coordinate that effort to make sure that we are 
supportive of the National Guard.
    Senator Roberts. That is the management responsibility we 
were referring to earlier, that is still on board?
    General Maples. Yes, sir.
    Senator Roberts. All right. Six pages, 90 pages, any 
comments?
    General Maples. Sir, we respect the integrity of the 
Inspector General system. Our belief was that many of the 
observations have been corrected by the programs, their natural 
processes as we went along. We did try to provide documentation 
in those areas where we did not have concurrence. We had our 
opportunity to provide our input to the Inspector General. Once 
the report became finalized our objective was to closely 
cooperate, provide whatever information that we could, and 
assist the Department of Defense and the Inspector General in 
resolving any remaining issues.
    Senator Roberts. Are we C-3 or C-1? I have a question here, 
why was the decision to use the C-3, i.e. marginally combat 
readiness rating for the WMD-CST?
    General Maples. Sir, at the time that was published the 
implementing memoranda stated the one consistent certification 
criteria that exists, and that was the criteria that appears in 
the National Defense Authorization Act. It was stated in there 
that to request certification the team commander had to be in a 
state of C-3 or higher. The C-3 was selected at the time by the 
Director of Military Support, which is consistent with the 
deployment criteria for other units within the Army.
    We fully realized that the C-3 criteria does not meet the 
same criteria that is established by the National Defense 
Authorization Act. We concurred with that portion of the IG 
report that C-3 is not an applicable standard, and in fact the 
Secretary's review of the teams, the training of their 
personnel, the training of the teams applied a C-1 standard 
before he forwarded those recommendations.
    Senator Roberts. If we think we have problems with an IG 
report in a subcommittee hearing, if we have an incident and we 
have C-3 readiness, and we are not ready, and they go out 
there, and there takes place what could take place, we are all 
going to be on the carpet in time, so I hope--which indicates 
the seriousness of this.
    Thank you all for your patience. Let me move to General 
Lawlor. General Lawlor, you are the individual responsible for 
marshalling the capability of our Armed Forces in support of 
all of the civilian agencies in response to something we call a 
domestic contingency involving the weapons of mass destruction. 
Are you satisfied with the number and the adequacy of the 
assets available to you?
    General Lawlor. I am.
    Senator Roberts. It is a big-time responsibility.
    General Lawlor. One of the benefits of being stationed at 
the United States Joint Forces Command is that the CINC of the 
United States Joint Forces Command has effective operational 
control over about 80 percent of the Armed Forces in the United 
States stationed within CONUS, and so through his components, 
the Army, the Navy, the Air Force, and the Marine Corps, he has 
a vast array of units that he can bring to bear, if needed. So 
our issue is really defining requirements. Once we have defined 
those requirements, the CINC sources them through his staff. So 
that is, we are satisfied that we have the capabilities.
    Senator Roberts. General, you were the former Deputy 
Director of Military Support during the establishment of 
CoMPIO, and we know your current title and your current 
responsibilities. What are your thoughts on the DODIG report, 
just your take on it?
    General Lawlor. I think that the report raises some valid 
points, and I think the folks that were engaged in the 
discussion over the course of the past 5 months concerning the 
results have learned on both sides. I think there were some 
disagreements concerning how the program was run. I think those 
were legitimate disagreements, strongly held and strongly 
believed by both sides. I think there has been a resolution of 
those points, and that the program is fundamentally sound and 
very important.
    Senator Roberts. As I indicated, you were involved in the 
TOP OFF exercises. I found that report fascinating and I wish 
they could have received more publicity, and certainly wish 
that more Members were aware of those exercises. My question 
is, are you satisfied with how the JTF and the CS operated 
during the course of the exercise, and then a follow-up 
question, what lessons were learned, and how are you 
implementing those lessons?
    Let me just say the TOP OFF exercise in Denver where we had 
an anthrax outbreak and pretty much put up--well, we just 
isolated, eventually, Colorado. People who attended the event 
from Kansas came back and were sick, and then obviously that 
started to spread. We did not even really have any idea that it 
was anthrax until much later, and in some cases the people in 
charge basically said, I think I will go to the mountains, 
thank you very much.
    Self-preservation seemed to be a key there. I am not saying 
that it all fell apart, but it was a hell of a thing, and if 
you really read through that, and you see that could be almost 
a verbatim script for one of the very popular movies that we 
seem to have around lately about such events, it will scare the 
socks off you.
    I think the exercises were very well-taken. There was some 
thought that that was not a wise use of funds. I think just the 
opposite. At least to my way of thinking they really showed how 
far that we have to come.
    Now, I am making a speech and not letting you answer the 
question. Go ahead.
    General Lawlor. As I understand your question, sir, there 
are two areas. The first was the interaction of the JTF and the 
CSTs during TOP OFF. We had CST number 1 from Massachusetts 
with us throughout that process. They were very effective. We 
utilized them in conjunction with--in fact, we tag-teamed them 
with the Chemical-Biological Incident Response Force of the 
Marine Corps, and those two elements worked together very well 
as a team. I thought they were very valuable and of great 
assistance to us.
    Second, with respect to TOP OFF, I would agree with you 
that that was an extremely effective exercise. It was very well 
done. My only comment, in two respects, perhaps, is that I 
think we may have paid a little bit too much emphasis on the 
no-notice aspect of it. We probably could have done a little 
better, had we known that we were going to have an exercise at 
a certain time--now, let us train for it, let us practice what 
we train, and then evaluate what we did and see where we went 
wrong. That is my Army upbringing.
    However, I think one of the lessons learned out of TOP OFF 
that we have looked at strongly within the Joint Forces 
Command, and it was driven somewhat by the artificiality of the 
exercise, is that we may have deployed to the wrong place. We 
are one of a kind, JTF-CS. We deployed to Portsmouth by virtue 
of the script, when in reality as we stepped back and looked at 
the TOP OFF exercise the real threat appeared to emerge in 
Denver. So that has given everyone pause to think about what is 
the trigger point for us to actually launch.
    Senator Roberts. What was the threat in Portsmouth? I 
cannot remember.
    General Lawlor. The threat in Portsmouth was a chemical 
attack. It was relatively small in terms of numbers, compared 
to Denver. We looked at probably 50 to 60 casualties in 
Portsmouth, whereas Denver, of course, was exponentially 
larger.
    Senator Roberts. Most of the experts who have come before 
this subcommittee, when we ask what keeps you up at night, and 
they indicate cyber threats, and then the possibility of the 
biological attack, and anthrax would be so easy, and we see the 
hoof and mouth disease publicity and BSE agriterrorism. 
Anybody, it is a little frightening in regards to how easy it 
would be, and you are talking about real consequences, so I 
really appreciate that.
    You said there was no notice, a no-notice exercise, but you 
indicated because of your military background maybe we should 
have provided notice. Maybe that training could have been a 
little bit better in terms of experience. I know I went out to 
Urban Warrior when the Marine Corps did that about--what was 
it, a year and a half, 2 years ago, and the local community 
knew what was going to happen but still did not know about how 
the chain of events would evolve, but at least they were there 
and semi-prepared. Is that what you are saying?
    General Lawlor. Yes, sir. I think from a training 
perspective you want to have an objective that you are training 
for, and then you can prepare yourself and use that exercise as 
a way to evaluate how well your training was, and what were 
your deficiencies you need to correct. That probably would have 
been a little bit more effective.
    Senator Roberts. Do you have any comments on how we are 
either adequately or not adequately organized, as Senator 
Landrieu has indicated, from Congress, what, on-down or on-up, 
and the military?
    General Lawlor. I think in response to your question, 
within the military, once there is an order issued by the Joint 
Staff to execute military support, at least from my perspective 
the chain of command is very clear. I work for the CINC. The 
CINC reports to the Secretary of Defense, and the Assistant to 
the Secretary of Defense, of course, is his staff, working this 
particular issue.
    With regard to the JTF itself, our challenge has been and 
will be for some time, manpower. We are organized. Like 
everything else in this field, we were set up very quickly. We 
are still working on manpower issues through the process to be 
underwritten by the services.
    Senator Roberts. We are trying to get enough money in the 
appropriations process so that you can have these joint 
exercises, not only in terms of your war-fighting capability, 
in regard to those threats, but precisely the kind of 
contingencies that you are involved in. You have spent a lot of 
time with State and local officials from around the Nation. The 
same question I asked in regards to General Davis, any 
impression on what those officials are saying, their views on 
the WMD-CSTs and your outfit?
    General Lawlor. I think there was initially some concern 
about the presence of the Federal Government, particularly the 
Federal military, intervening in local affairs and State 
affairs. I think, however, as the process has evolved, 
particularly as the CSTs have been involved, those views are 
changing.
    We find now that when we go to places to conduct exercises 
or plan for special events, that we are very well-received. We 
are more and more getting inquiries from State and local 
officials who would like us to work with them. In some 
respects, that presents us with a problem, because we have not 
staffed to have a great deal of interaction with State and 
local officials, because in the final analysis we always follow 
a lead Federal agency. We are always working for the Federal 
lead agency on-site, and not necessarily the State and locals.
    Senator Roberts. We had quite a debate several years ago 
whether the DOD made a mistake as to whether or not they are 
the lead agency in this whole endeavor, and obviously, that 
went to the Department of Justice, and obviously, that was one 
of the concerns in regard to DOD being the lead agency. I think 
that was probably a wise decision on the part of President 
Clinton and others, and also Dick Clark, and so that decision 
has been made, and so I hope we can work that out.
    General Lawlor. I did not mean to suggest that we should be 
the lead, Senator. We clearly should not be, and we are not 
designed to be.
    Senator Roberts. It sounded like you said that. As a matter 
of fact, I said that about 2 years ago, but that is beside the 
point. I have changed my mind.
    I met with the Kansas first responders when they had their 
second annual meeting, and county officials, local community 
officials, fire fighters, health care first responders, mayors, 
so on and so forth. It is quite a meeting, and it is getting 
bigger and bigger, and quite frankly they look to us to say, 
please give us the guidance, give us the blueprint, we need: 
(a) money, which is always the case, funding; (b) expertise; 
and (c) a blueprint, and let us run some exercises, let us see 
if it works.
    So in that regard, why DOD--and you know as well as I do, 
if we have an incident, who is going to be there. We are going 
to be asked. We are about the only ones with the discipline and 
the numbers and the expertise to get there fast and to do 
something.
    John Hamre has indicated that it should not be our 
responsibility in the ``TO'' chart, but you know darned well 
that we are going to be there, and we are going to have to be 
ready in that respect.
    That is the last of the questions. I am starting to lecture 
instead of giving speeches, and so I will cease and desist. Do 
any of you have any concluding comments or suggestions for the 
good of the order on this whole topic that you would like to 
offer at this time?
    I want to thank you for the job you are doing and the 
dedication you are showing to this very difficult challenge 
that we have that, as you have indicated, or you know by this 
subcommittee and all the press attention to this, number 1 in 
terms of the threat that we face in our country today, so I 
really think you are on the front lines doing a great job. I 
thank you for coming to the subcommittee, and I thank you for 
your contribution. Mr. Lieberman, any concluding remarks?
    Mr. Lieberman. No, sir.
    Senator Roberts. General Davis?
    General Davis. Just one thing, sir. As you indicated, we 
are going to be there, and we know in the Guard we are going to 
be there probably as the first military folks on site, because 
when it gets out of control for the mayor or the village----
    Senator Roberts. But General, we did that on purpose 
because local officials are familiar with the National Guard, 
and the National Guard is familiar with the local officials. We 
thought that was a good fit.
    General Davis. Yes, sir, so we would like to see this 
capability expanded in the sense, particularly with respect to 
the training of local first responders. They come to us all the 
time for that kind of training, and that is one of the things--
I think, number 1, training is a competency of the military, 
and I think we could really assist them a great deal more 
perhaps in that arena, sir.
    Senator Roberts. Thank you.
    General Maples?
    General Maples. Sir, the only comment I would make is, as I 
mentioned before, that the specialized training, skills, and 
equipment that the CSTs do possess truly do support and 
facilitate the development of increased local and State 
capabilities, and we are absolutely dedicated as a team to 
ensuring that we resolve whatever issues remain with the CSTs 
in order to get them certified in the nearest possible time.
    Senator Roberts. General Lawlor?
    General Lawlor. I have nothing. Thank you.
    Senator Roberts. The subcommittee stands adjourned. Thank 
you, gentlemen.
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Mary L. Landrieu
                   wmd-cst initiative program review
    1. Senator Landrieu. Mr. Lieberman, in your opening statement you 
note that a thorough program review of the WMD-CST initiative is 
underway. This review is to cover the operational concept, doctrine, 
equipment, sustainment, personnel assignments and rotations, funding 
and the certification process--all of which arguably have problems 
today. Please describe the participants in the WMD-CST program review, 
its elements, and what they have determined to date.
    Mr. Lieberman. Since the Office of the Inspector General, DOD, is 
not a program review member, this response was derived from information 
provided by the Office of the Assistant Secretary of Defense (Reserve 
Affairs). In January 2001, in response to one of the recommendations in 
our audit report, the Deputy Secretary of Defense directed a formal 
OSD-led program review with a completion date by August 1, 2001. The 
current effort is on track to meet the completion date.
    The program review is under the lead of the Assistant Secretary of 
Defense (Reserve Affairs) and the Assistant Secretary of Defense 
(Special Operations/Low Intensity Conflict); with full participation of 
the Under Secretary of Defense (Acquisition, Technology, and 
Logistics); the Under Secretary of Defense (Comptroller); OSD General 
Counsel; Director, Program Analysis and Evaluation; the Joint Staff; 
the U.S. Joint Forces Command; the Army; and the National Guard Bureau.
    Nine subgroups were formed to address current program deficiencies, 
propose any program adjustments, and identify recommendations to 
integrate the WMD-CST Program into existing DOD institutional 
practices. These subgroups are: (1) Missions and Operational 
Capabilities; (2) Regional and State Coverage Parameters; (3) 
Sustainment Factors; (4) Individual and Collective Skills Requirements; 
(5) Organizational Structure; (6) Modernization, Fielding and 
Logistical Support; (7) Legislative Requirements; (8) Certification 
Standards and Procedures; and (9) Funding Profile Development. To date, 
the subgroups have not finalized or published the results of their 
efforts, but indicate that the August 1, 2001, suspense will be met.

    2. Senator Landrieu. Mr. Lieberman, in your opinion, what remains 
to be done before the WMD-CSTs can be certified?
    Mr. Lieberman. As a result of our audit report, a senior level 
working group with representatives from the Assistant Secretary of 
Defense (Reserve Affairs); the Inspector General, DOD; the National 
Guard Bureau; and the Army was established to oversee the correction of 
known deficiencies and to work toward WMD-CST certification. 
Significant progress has been made to date. The following actions are 
planned so that the 10 initial CSTs may be certified by August 2001.
    An operational test and evaluation is planned to be conducted for 
the Mobile Analytical Laboratory System (MALS). The MALS will undergo 
the same types of automotive and mission-related tests new programs 
normally undergo. This is currently scheduled to be completed by August 
25, 2001. In addition, the teams are scheduled to undergo training on 
revised tactics, techniques, and procedures on the mission-related 
equipment contained in the MALS. The teams will then undergo a 
certification evaluation on that training at Fort Leonard Wood, 
Missouri. That effort is currently scheduled to be completed by July 
15, 2001. Pending successful completion of these efforts, the initial 
10 CSTs would be candidates for certification.

                         command relationships
    3. Senator Landrieu. Mr. Lieberman, General Davis, General Maples, 
and General Lawlor, after reviewing the IG Audit Report and discussing 
this issue with some knowledgeable people, I've come to the conclusion 
that one systemic problem is the relationships between various Federal, 
state, and local organizations. The lack of clarity in law, procedures, 
memorandums of understanding and other organizational constructs has 
resulted in what the military calls ``an unclear chain of command.'' 
Every expert I've talked to and every report I've read stresses the 
same thing--the need for a quick, coordinated response between the 
various agencies. I'm afraid that this is probably the biggest weakness 
in our present program. Can you tell me if the governor of a State in 
which a WMD-CST is based could order a CST to perform its mission even 
before it has been certified by the Secretary of Defense?
    Mr. Lieberman. As stated in the National Security Authorization Act 
of 1999, ``a Reserve component rapid assessment element team and any 
Reserve assigned to such a team may not be used to respond to an 
emergency unless the team or that Reserve possesses the requisite 
skills, training, and equipment to be efficient in all mission 
requirements.'' This is the certification standard. As a result, the 
teams are not allowed to respond to an incident until the teams are 
certified to Congress by the Secretary of Defense.
    General Davis and General Maples. While the laws of the 54 National 
Guard jurisdictions vary, in general the governor is the commander in 
chief of the militia, which includes the National Guard. The Adjutant 
General is the governor's principal advisor on military matters and 
manages the state's military establishment. Members of the National 
Guard serving in Title 32 status (federally-funded but remaining in 
militia status under state control) and members of the National Guard 
ordered to state active duty under state law, typically to respond to 
emergencies, disasters, or civil disturbances, are under the command 
and control of the governor.
    Because members of the CSTs serve in a Title 32 Active Guard/
Reserve status, they are under the command and control of the governor 
at all times until mobilized for active duty. In the event of a WMD 
emergency or disaster, it is reasonable to assume that a governor will 
use personnel and assets under his command and control as needed to 
most effectively respond to that situation.
    CSTs, like all other military units, would also respond to 
emergencies under the ``Immediate Response'' doctrine. That doctrine 
allows local military commanders to act without prior approval of 
higher headquarters when necessary to save lives, prevent human 
suffering or mitigate great property damage. See Department of Defense 
Directive 3025.1, paragraph 4.5 (attached).
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    General Lawlor. A governor of a State could order a WMD-CST to 
perform a mission before it is certified by the Secretary of Defense. 
He/she would do so in his/her capacity as the senior State official and 
the unit would perform its mission under State orders.

    4. Senator Landrieu. Mr. Lieberman, General Davis, General Maples, 
and General Lawlor, can you tell me the status of the effort to reach 
State-to-State compacts so that CSTs in one State can travel to a 
neighboring State to provide assistance in the case of a WMD incident?
    Mr. Lieberman. The Department of Defense only maintains visibility 
of the Emergency Management Assistance Compact (EMAC). The Federal 
Emergency Management Agency (FEMA) oversees the EMAC. The EMAC 
establishes a legal foundation for requests between States for 
emergency assistance. Requests made under the EMAC are contractually 
binding. The State receiving assistance is responsible for 
reimbursement of costs incurred by the State supplying assistance. 
However, not all States where WMD-CSTs are located are signatories of 
the EMAC. Of the first 10 WMD-CSTs, only three are located in EMAC 
States. Of the 17 WMD-CSTs now in training, 11 are located in EMAC 
States. With 13 WMD-CSTs located in States that are not signatories to 
the EMAC, continued emphasis by FEMA is needed to ensure that compacts 
are in place between those States and the surrounding States.
    General Davis and General Maples. Forty states are members of the 
Emergency Management Assistance Compact (EMAC). That compact provides 
for most forms of interstate cooperation but is not applicable to the 
use of Civil Support Teams. Individual States can quickly reach 
agreements to rapidly share or lend resources in an emergency 
situation. Therefore, the lack of a compact between two States does not 
preclude requests for assistance.
    Currently there are three general humanitarian compacts in place. 
The Mutual Aide Compact enacted in 1952 by Pennsylvania (PA), New York 
(NY), and New Jersey (NJ); The Southwestern Governors Compact (amended 
to include the National Guard) between the states of Arizona (AZ), 
California (CA), Colorado (CO), New Mexico (NM), Nevada (NV), and Utah 
(UT); and the Southern Regional Emergency Management Assistance Compact 
(SREMAC).
    In August 1993 the 19-member Southern Governors' Association (SGA) 
signed the SREMAC. The signatories were the Governors of Alabama (AL), 
Arkansas (AR), Delaware (DE), Florida (FL), Georgia (GA), Kentucky 
(KY), Louisiana (LA), Maryland (MD), Mississippi (MS), Missouri (MO), 
North Carolina (NC), Oklahoma (OK), Puerto Rico (PR), South Carolina 
(SC), Tennessee (TN), Texas (TX), Virgin Islands (VI), Virginia (VA), 
and West Virginia (WV). Though signed by the Southern Governors 
Association (SGA) governors, SREMAC requires enactment by some states' 
legislatures.
    In January 1995, the SGA passed a resolution to open SREMAC 
membership to all other states/territories and seek state and Federal 
ratification, thereby providing a core for expansion into a single 
national compact. The amended version of SREMAC is called the Emergency 
Management Assistance Compact (EMAC).
    To date, the following 40 states/territories have enacted EMAC: AR, 
AZ, Connecticut (CT), DE, FL, GA, Indiana (IN), Iowa (IA), KY, Kansas 
(KS), LA, Massachusetts (MA), Maine (ME), MD, Minnesota (MN), MS, MO, 
MT, Nebraska (NE), New Mexico (NM), Nevada (NV), New Mexico (NM), NC, 
North Dakota (ND), New Hampshire (NH), OK, Pennsylvania (PA), PR, Rhode 
Island (RI), SC, South Dakota (SD), TN, TX, VA, VI, Vermont (VT), 
Wisconsin (WI), and WV.
    General Lawlor. Many States are members of interstate compacts that 
promote cooperation among the jurisdictions. The largest such compact 
is the Emergency Management Assistance Compact (EMAC). National Guard 
units have been traveling freely to neighboring States to render needed 
assistance for years without regard to whether the sending and/or 
receiving States are members of any particular compact. Movement 
between States is not considered to be a problem.

    5. Senator Landrieu. General Lawlor, you are assigned as the 
Commander, Joint Task Force Civil Support. The JTF focuses exclusively 
on providing military support. Some of the CSTs, once certified, are 
scheduled to be assigned to the Commander in Chief Pacific Command 
(CINCPAC). What will be your relationship to those teams? Will it 
change if they are federalized?
    General Lawlor. These teams will report to the Adjutants General of 
the respective States to which they are assigned. In the event of an 
incident involving weapons of mass destruction, CSTs would respond as 
directed by the Adjutant General of the affected State. If they are 
federalized and if JTF-CS is deployed to the CINCPAC's AOR to oversee 
DOD's response, the CINC might place such teams under the JTF's 
operational control. Otherwise, they would respond as directed by 
CINCPAC.

    6. Senator Landrieu. General Lawlor, will the Joint Task Force have 
any relationship with the CSTs or other National Guard units that a 
governor calls upon in response to a crisis if they have not yet been 
federalized?
    General Lawlor. If National Guard forces are not federalized, they 
remain under the control of the governor of the State in which they are 
located and will take their direction from him or her. In such event, 
the JTF will conduct liaison operations with such units to ensure 
effective coordination of ongoing operations.

                   wmd-cst initiative program review
    7. Senator Landrieu. General Davis, in the opening statement of Mr. 
Lieberman, he noted that a thorough program review of the WMD-CST 
initiative is underway. This review is to cover the operational 
concept, doctrine, equipment, sustainment, personnel assignments and 
rotations, funding and the certification process--all of which arguably 
have problems today. Do you have anything to add to Mr. Lieberman's 
comments on the program review?
    General Davis. A program review was initiated by the Office of the 
Assistant Secretary of Defense/Reserve Affairs (OASD/RA) concerning the 
WMD-CST operational concept, doctrine, equipment, sustainment, 
personnel assignments and rotations, finding and the certification 
process. The program review has been completed and was forwarded to the 
Deputy Secretary of Defense for final approval.
    The program review recommendations resulted from the full 
participation and support of the Office of the Secretary of Defense, 
Joint Staff, U.S. Joint Forces Command, Department of the Army and 
National Guard Bureau staffs.
    The original focus of the review was to address current program 
deficiencies, propose needed program adjustments and identify 
recommendations for optimum integration of the segment being examined 
into Department of Defense business practices. During the program 
review, it became apparent that the institutional processes of the 
Army, rather than the program review, would best address many long-
range issues. The Army agreed to conduct a Force Management Analysis 
Review (FMAR) to provide a comprehensive high-level examination of 
these and other WMD-CST management issues, and to ensure that the 
program was fully integrated into the Army's institutional processes. 
With this commitment from the Army, the focus of the program review 
shifted to addressing issues necessary to develop a comprehensive 
program baseline and to propose adjustments necessary to effectively 
implement the program, pending the results of the Army's FMAR.
    Although many areas of concern were raised by the recent DOD 
Inspector General Report regarding overall management of the WMD-CST 
program, I am confident that we are headed in the right direction 
toward their resolution.

    8. Senator Landrieu. General Maples, do you have anything to add to 
Mr. Lieberman's comments on the program review?
    General Maples. The Army is very supportive of the ongoing 
Department of Defense program review. We are cooperating fully in 
providing personnel with appropriate expertise and documentation of the 
program's established processes that we believe will assist in 
resolving any remaining concerns in the program areas mentioned. Our 
intent is to ensure that the Civil Support Teams are properly manned, 
trained, and equipped and that longer-term programmatic and systemic 
issues are resolved.

    9. Senator Landrieu. General Davis, General Maples, and General 
Lawlor, what do you envision to be your respective organization's role 
relative to the WMD-CSTs and each other once the WMD-CSTs have been 
certified and are performing their mission?
    General Davis. The National Guard Bureau (NGB) is the channel of 
communication on all matters pertaining to the National Guard, Army 
National Guard of the United States, and the Air National Guard of the 
United States between (1) the Department of the Army and Department of 
the Air Force, and (2) the several States (U.S. Code: Title 10, Section 
10501). The Chief of the National Guard Bureau has responsibility for: 
allocating unit structure, strength authorizations, and other 
resources; prescribing the training discipline and training 
requirements; the allocation of Federal funds; ensuring that units and 
members of the Army National Guard and the Air National Guard are 
trained by the States in accordance with approved programs and policies 
of, and guidance from, the Chief, the Secretary of the Army, and the 
Secretary of the Air Force; monitoring and assisting the States in the 
organization, maintenance, and operation of National Guard units so as 
to provide well-trained and well-equipped units capable of augmenting 
the state emergency responders in time of national emergency involving 
weapons of mass destruction incidents; planning and administering the 
budget for the Army National Guard of the United States and the Air 
National Guard of the United States; supervising the acquisition and 
supply of, and accountability of the States for, Federal property 
issued to the National Guard through the property and fiscal officers 
designated, detailed, or appointed under Section 708 of Title 32; 
supervising and administering the active Guard and Reserve program as 
it pertains to the National Guard; issuing directives, regulations, and 
publications consistent with approved policies of the Army and Air 
Force, as appropriate; and facilitating and supporting the training of 
members and units of the National Guard to meet State requirements.
    These roles and responsibilities are further reinforced by the 
Acting Secretary of the Army memorandum dated 2 March 01, establishing 
the Chief, National Guard Bureau (CNGB) proponent for the National 
Guard WMD-CSTs. This responsibility covers all management functions 
including training, organizing, acquisition, sustainment, and 
operational support and force development. In addition, all 
programming, budgeting, and execution of funds for the CSTs will be 
executed as directed by the CNGB. The NGB will continue to coordinate 
Training Readiness Oversight functions with U.S. Army Forces Command 
and liaison with Joint Task Force Civil Support in support of Federal 
activation of the CSTs.
    General Maples. Overall program management of the WMD-CSTs will 
remain with the Army. The Army will support the National Guard Bureau 
through Forces Command, Training and Doctrine Command, and its other 
institutions to provide training readiness and oversight, as well as 
support in the development of doctrine, organizations, and materiel in 
order to ensure that these teams are trained, manned, and equipped to 
perform their vital mission. The Army will maintain established 
relationships with JTF-CS to facilitate employment of the CSTs in a 
Federal role if required.
    General Lawlor. Once the WMD-CSTs are certified, a key objective 
for JTF-CS will be to promote standardization and interoperability. 
While the WMD-CSTs are operating in a State status as part of the State 
National Guard, JTF-CS will offer joint training opportunities to the 
teams and provide them with assistance in such areas as doctrine, 
tactics, techniques, and procedures, response planning and expertise 
reach back. The goal is to incorporate the capabilities of the WMD-CSTs 
into JTF-CS response planning.
    If a WMD-CST is federalized and operational control (OPCON) is 
given to JTF-CS, we envision that the WMD-CST will provide us with 
situational awareness, a preliminary assessment of what support might 
be needed, guidance concerning local laws and customs, and help in 
integrating Federal forces into state and local response operations. 

                 interim process prior to certification
    10. Senator Landrieu. General Davis and General Maples, during the 
period prior to certification by the Secretary of Defense, I assume 
that the CSTs are continuing to train with first responders and others 
who will have a role in the event of a terrorist incident involving a 
weapon of mass destruction. Can you tell me if that training is 
actually taking place today?
    General Davis and General Maples. Yes, in addition to the ongoing 
training of the team members, the WMD-CSTs are continuously training 
civilian first responders and others who will have a role in the event 
of a terrorist incident involving a WMD. In fact, the bonds between the 
WMD-CSTs and state and local officials who are responsible for 
responding to emergencies are growing stronger with each passing day. 
For example, in Texas, the 6th WMD-CST enjoys a strong and frequent 
training relationship with local officials such as the Houston Fire 
Chief in charge of Hazardous Material (HAZMAT) response and the state 
Emergency Management Office.
    In Massachusetts, the first WMD-CST has recently been training in 
exercises with the State Police to coordinate sending video of an 
incident site back to Federal authorities using the CSTs Unified 
Command Suite (UCS). Last year WMD-CSTs participated in TOP OFFicials 
(TOPOFF), a nationwide exercise that involved local first responders, 
the Justice Department, and other elements of the Department of Defense 
in Denver, New Hampshire, and Washington, DC, where simulated WMD 
events were used in concurrent exercises simulating WMD events. All of 
the WMD-CSTs train with local first responders on a continual basis, 
and this is providing an awareness of the WMD-CST capabilities among 
civilian first responders.
    The close association of the CSTs with State and local first 
responders is not surprising. In many states, the Adjutant General is 
also designated as the State Emergency Management Director. In such 
cases, both the CSTs and the state emergency response assets are under 
the supervision of the Adjutant General.
    In addition, all of the WMD-CSTs participate in a formal training 
program to maintain and improve their proficiency once they are 
established. The Emergency Assessment and Detection Course (EADC) at 
Fort Leonard Wood, Missouri, is the kickoff for the entire training 
program for the WMD-CSTs. Once the teams complete EADC, the WMD-CSTs 
return home where members continue individual and institutional 
training. WMD-CST training is unique because it combines military and 
civilian training prior to certification. On average, a WMD-CST member 
will complete approximately 600 hours of training, which consists of 
about 95 days of temporary duty (TDY). Commanders and medical officers 
usually complete more training. Courses are taught by the Department of 
Defense, the Department of Justice, the Federal Emergency Management 
Agency (FEMA), the Department of Energy, the Environmental Protection 
Agency, and state fire academies.
    The Incident Command System taught by FEMA, the Combat Lifesaver 
Course taught by the U.S. Army Medical Department, and the Hazardous 
Materials (HAZMAT) courses taught by state fire academies are basic 
courses required for WMD-CST personnel to participate in a response to 
a WMD event. However, the 22-member team consists of 14 military 
occupational specialties, which require an array of additional 
specialized training and courses.
    Upon completion of the prerequisite individual training, the CSTs 
conduct collective training at Fort Leonard Wood. Upon completion of 
the collective training and an external evaluation, the teams are 
normally recommended for certification. The initial 10 teams have 
completed this process and have been recommended for certification. The 
remaining 17 teams have completed their collective training. Their 
external evaluations, however, have been delayed until they receive the 
UCS.

                          topoff 2000 exercise
    11. Senator Landrieu. General Davis, General Maples, and General 
Lawlor, TOPOFF (TOP OFFicials) 2000 was a national combating terrorism 
field exercise of Federal, state, and local organizations that 
simulated a biological weapons incident in Denver, Colorado, and a 
chemical incident in Portsmouth, New Hampshire. Additionally, there was 
a separate but concurrent exercise in the National Capitol Region that 
involved the use of radiological devices. I would like each of the 
military witnesses to describe what role, if any, their organization 
played in TOPOFF or the National Capital Region exercise and comment 
briefly on any lessons learned from that participation.
    General Davis. National Guard personnel organized themselves into 
liaison teams to help assist and integrate the Federal response. 
Liaison teams escorted Federal units to and from sites in and around 
Portsmouth, NH, where help was requested and provided tactical 
communications between such units and the combined headquarters. Their 
knowledge of the local terrain significantly decreased response times, 
as they were able to guide Federal forces unfamiliar with local street 
patterns quickly to sites where assistance was needed. JTF-CS found 
itself relying heavily on their tactical communications capabilities to 
keep itself informed of the location and progress of Federal units 
performing requests for assistance (RFAs).
    The NH Guard did not have sufficient exercise funding to provide a 
robust response. The exercise would have benefited from greater funding 
that would have enabled the state to test and stress its mobilization 
and response plans. This is an area JTF-CS is working for future 
exercises.
    The following addresses additional issues and lessons learned from 
the TOPOFF exercise:
    ISSUE: Multiple Department of Defense agencies requesting status 
reports, no ``single entry point'' for status reporting to DOD.
    DISCUSSION: Reporting points for the National Guard Bureau grew 
significantly for this exercise when compared to other disasters under 
the Federal Response Plan (FRP). NGB Operations Center provided 
Situation Reports (SITREPS) to the following Pentagon offices:
    Director of Military Support (DOMS, Normal single entry point under 
FRP); Joint Chiefs of Staff Manpower (JCS-J1); Army Operations Center 
(AOC) (Normal single entry point for Federal Mobilization); Joint 
Chiefs of Staff Operations (JCS-J3); Office of the Secretary of Defense 
Command, Control and Communications (OSD-CCC); Joint Chiefs of Staff 
Strategic Plans (JCS-J5);
    Assistant to the Secretary of Defense Civil Support; (ATSD-CS); 
Joint Chiefs of Staff Operational Plans (JCS-J7); National Military 
Command Center (NMCC). Additional SITREPS were given to Joint Forces 
Command (JFCOM), Joint Task Force Civil Support (JTF-CS), Soldier 
Biological and Chemical Command (SBCCOM), Forces Command (FORSCOM), and 
1st Army, and 5th Army.
    RECOMMENDATION: Have DOMS distribute NG support and activities for 
military support during WMD events as they do for other disasters under 
the FRP.
    ISSUE: JTF-CS authority over NG personnel.
    DISCUSSION: JTF-CS indicated that they wanted Tactical Control 
(TACON)/Operational Control (OPCON)/Command and Control (C\2\) over all 
uniformed service personnel at the disaster site. Only those service 
personnel under Title 10 support may go under the control of JTF-CS. 
The Adjutant General (TAG) maintains control of those personnel in 
Title 32 and State Active Duty (SAD). Normally the NG forces are in 
support of state/local agencies (incident commander) while DOD assets 
are in support of the lead Federal agency (LFA).
    RECOMMENDATION: Clarify the authority of the JTF as it pertains to 
NG forces in SAD or Title 32. Clarify coordination of support 
activities so all agencies work toward a common goal. The TAG may 
provide assistance to JTF-CS if requested through the Defense 
Coordinating Officer (DCO) to FEMA to the state with normal request for 
assistance (RFA) procedures already established.
    ISSUE: Standardized reporting information.
    DISCUSSION: There is a need to determine a standardized report(s) 
format for WMD-CSTs in order to facilitate the transfer of information 
between the first responders, CSTs, JTF-CS, SBCCOM and NGB.
    RECOMMENDATION: Establish a working group to facilitate and 
coordinate standardized message formats and reporting formats between 
these agencies. Establish lead agency for publication of reports.
    ISSUE: Process and procedure for handling of WMD disaster support 
was not timely or responsive when compared to other disaster response 
support.
    DISCUSSION: A disaster as a result of a WMD incident at the local 
or state level is not significantly different from other disaster. 
Requests for Federal support from the states should not be different. 
All requests should still come from FEMA to DOMS for DOD support. Due 
to the probability of significantly more support from DOD additional 
assets may require additional coordination within DOD but the 
coordination center for these assets should remain with DOMS due to 
their experience and use during other disasters. This lack of 
experience added significant time to the decision making process. The 
number of WMD incidents should remain small when compared to the number 
of other military support to civil authorities operations conducted 
annually by DOMS.
    RECOMMENDATION: External procedures to request/receive support from 
DOD should remain constant. Internal changes for DOD support should be 
transparent allowing more responsive and timely decisions.
    ISSUE: A request for support from a civilian agency was not acted 
on in a timely manner and was later denied because it did not come 
through proper channels.
    DISCUSSION: Civilian agencies do not always know what proper 
channels are to get support from DOD. DOMS has vast experience in 
working military support to civil authorities and understands how to 
effectively get requests back into proper channels and facilitate the 
request for DOD support. This well-established channel is used for all 
other requests for support for disasters, is understood by other 
Federal agencies, and works extremely well.
    RECOMMENDATION: Do not stop or sit on an action because it comes 
through an improper channel. Facilitate the process to ensure each 
action is processed in a timely manner. Established channels of 
communications to receive DOD support during a disaster must 
accommodate the requestor and placed back into proper channels at 
whatever level this action is received and identified as being 
improperly received.
    General Maples. The Director of Military Supports (DOMS), provided 
full time manning support to the TOPOFF Crisis Response Cell throughout 
the course of the exercise, processing Consequence Management (Military 
Support to Civil Authority) actions and requests for Department of 
Defense assistance from the Federal Emergency Management Agency. DOMS 
serves as the action agent for the Secretary of the Army in his DOD 
Executive Agent role for military support to civil authorities.
    The lesson learned for DOMS is consistent with the ongoing 
requirements to maintain liaison, communicate, and train with the 
inter-agency and civilian authorities. Since DOMS is the Department of 
Defense's entry point for support requests from FEMA, we must sustain 
our ongoing relationships with multiple organizations to ensure that we 
provide the best support possible to FEMA while we coordinate the DOD 
response with the Office of the Secretary of Defense Executive 
Secretary.
    General Lawlor. During TOPOFF, United States Joint Forces Command 
deployed JTF-CS to Portsmouth, New Hampshire in support of the Federal 
Emergency Management Agency's consequence management efforts at that 
location. Once in Portsmouth, JTF-CS established a combined military 
headquarters with the New Hampshire National Guard and provided 
military assistance in responses to those state and local requests for 
assistance that were approved by FEMA.
    In my judgment, the biggest lesson learned is that, as the size and 
scope of the biological attack in Denver unfolded, the decision to 
deploy JTF-CS may have been incorrect because the unit's expertise and 
capabilities may have been better utilized at the Denver incident site. 
In fairness, however, the decision to deploy JTF-CS to New Hampshire 
was driven more by the script than by the exercise as it actually 
unfolded. Based on the potential for future multiple incident sites and 
this lesson learned, United States Commander in Chief, Joint Forces 
Command has looked at its ability to respond to multiple sites and JTF-
CS has worked on procedures to rapidly disengage from one incident site 
if called upon to respond to a more serious incident at another 
location.

                   national guard warfighting mission
    12. Senator Landrieu. General Davis, in your prepared statement, 
you note that ``while the National Guard may lead on certain homeland 
security areas, we must not separate the National Guard team from our 
traditional warfighting missions. I have two questions: one, is that 
statement addressed to the National Guard as a whole, and two, if so, 
are you concerned that there is a risk that the homeland security 
mission may lead to a diminution of the participation of the National 
Guard in its traditional warfighting missions?
    General Davis. Yes, this statement is addressed to the National 
Guard as a whole. The Hart-Rudman Commission released a report in 
January that recommended the National Guard have a lead role in 
homeland security, which is not a new idea. However, leaders within the 
National Guard have consistently cautioned against making homeland 
defense the primary role of the National Guard. Homeland defense has 
been a mission for the National Guard since its inception more than 360 
years ago. We will continue to provide homeland defense as well as 
contribute our combat assets toward our primary role of providing the 
Nation with a first line of defense against foreign threats. In 
essence, we help fight the Nation's wars, and we do this by 
contributing a significant share of combat assets to the regular 
forces, both Army and Air.
    When it comes to homeland security, our role--as with the entire 
military--is evolving. Currently there is a strong belief that our 
Nation is threatened by the possibility of a WMD attack inside our 
borders. This has raised an interesting issue regarding the use of 
military assets inside the continental United States. One of the main 
reasons that the WMD-CSTs were placed in the National Guard is because 
of our constitutional role of protecting the homeland from potential 
harm.

    13. Senator Landrieu. General Davis, does that statement apply in 
any way to the WMD-CSTs? 
    General Davis. The WMD-CSTs represent just one of the many 
initiatives the country has taken to protect its citizens and respond 
to the current WMD threat against the United States. However, the 
National Guard has always defended the Nation from similar threats 
against its citizenry and infrastructure, whether it is the Air 
National Guard flying air-to-air defense of our borders or providing 
emergency relief for the myriad natural disasters and catastrophes that 
have occurred throughout our history. The National Guard is our 
Nation's forward deployed force with a presence in more than 3,000 
communities in every state, territory, and the District of Columbia. As 
such we are the first line of defense inside the Nation as well as 
against threats outside of United States. We are the first on the scene 
of any catastrophic event, assisting the victims, providing authorities 
with crowd control assets, and doing what it takes to restore order and 
peace to the community. We will continue to do this, and to answer the 
call no matter what it might be, or from where it might come.
                                 ______
                                 
 Department of Defense Inspector General Audit Report No. D-2001-043, 
Management of National Guard Weapons of Mass Destruction--Civil Support 
                     Teams, dated January 31, 2001.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    [Whereupon, at 4:46 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
